     .,\
     -- !.i.IlVIC(S.£¡




,r t:
~+
 -''
"'~""l-'.
  ;,."410
                               DEPARTMENT OF HEALTH & HUMAN SERVICES                                                Office of Inspector General


                                                                                                                    Washington, D.C. 20201



                                                                                               OCT 2 2 2004




                         TO:                 Edwin L. Walker
                                             Deputy Assistant Secretary for Policy and Programs
                                             Administration on Agi Q¡ /.

                         FROM:               George Grob ~
                                             Assistant Ins ector General
                                                for Evaluation and Inspe . ons

                         SUBJECT:            Performance Data for the Senior Medicare Patrol Projects: October 2004
                                             Performance Report (OEI-02-04-00360)


                     At the request of the Administration on Aging (AoA), the Office of   Inspector General (OIG)
                     collects performance data from the Senior Medicare Patrol Projects. These projects receive grants
                     from AoA to recruit retired professionals to serve as educators and resources in assisting
                     beneficiares to detect and report fraud, waste, and abuse in the Medicare program. A total of 57
                     projects operated from Januar through June 2004. At least one project is located in each of
                                                                                                                                    the 50
                     States, the Distrct of Columbia, and Puerto Rico.

                     In the last 6 months, from Januar through June 2004, the 57 projects educated approximately
                     247,996 beneficiaries in 82,530 group training sessions and one-on-one sessions. As a result of
                     educating beneficiares, the projects received 2,984 complaints, of          which 522 were referred to
                     Medicare contractors for follow-up. A total of 195 resulted in money recouped to the Medicare
                     program or some other action taken by the Medicare contractor or investigative agency. In total,
                     the projects documented $42,223 recouped to the Medicare program. The projects also reported
                     $200,000 in savings to the Medicaid program and savings of         $206,867 to beneficiaries, of  which
                     $1,151 was documented.

                     In Februar 1999, OIG issued a report on the projects' first-year performance data (OEI-02-97-
                     00522). OIG has since released reports on these performance data for each subsequent 6-month
                     period. Since the inception of              the program 7 years ago, a total of 62 projects (5 of     which closed
                     between June 2002 and December 2003) have educated more than 1.8 millon beneficiares in
                     455,412 group training sessions and one-on-one sessions. As a result of educating beneficiares,
                     the projects received 40,747 complaints, of                     which 4,037 resulted in some action. Total savings to
                     the Medicare program attbutable to the projects are $3,945,567. Self-reported savings to
                     beneficiares, Medicaid, and other payers were approximately $100 milion. Most of the $100
                     milion in savings is the result of one project's involvement in adjustments to Medicaid claims for
                     individuals entitled to both Medicaid and Medicare. The appendices contain more information on
Page 2 - Edwin L. Walker

the performance of each grantee.

We continue to emphasize that the number of                                 beneficiares who have leared to detect fraud,
waste, and abuse from the Senior Medicare Patrol Projects, and who subsequently call the OIG
fraud hotIine or other contacts, canot be tracked. Therefore, the projects may not be receiving full
credit for savings attbutable to their work. In addition, substantial savings, which canot be
tracked, may be derived from a sentinel effect whereby fraud and errors are reduced in light of
Medicare beneficiares' scrutiny of                       their bils.


The Centers for Medicare & Medicaid Services developed a tracking system that requires all
contractors to provide semi-anual reports of all complaints initiated by the Senior Medicare Patrol
Projects. In this reporting period, we requested that each project submit all tracking reports and
correspondence they may have received from the contractors, regardless of
                                                                                                        whether actual savings
occured. Thirteen of the 57 projects provided us with such documentation. Ten of these 13
projects submitted at least one tracking system report; the other three submitted letters or e-mail
correspondence from contractors. Four of    the 10 projects submitted tracking system reports that
included documented savings to the Medicare program.

We wil continue to monitor the projects and provide you with summar reports of
                                                                                    performance
data. If you have any questions, please call me at (202) 619-0480, or one of your staff may contact
Jodi Nudelman, Acting Regional Inspector General for Evaluation and Inspections, New York
Region, at (212) 264-2000.


Attachments:
Appendix A - Sumar of     Performance for All Projects Since 1997
Appendix B - Sumar of     Performance for All Projects in the Last Two Reporting Periods
Appendix C - Projects' Results for Each Performance Measure
Appendix D - Individual Project Results for All Projects in the Last Two Reporting Periods
       Senior Medicare Patrol Projects’ Performance Measure Results



                                     List of Appendices
                                                                                           Page

Appendix A: Summary of Performance for All Projects Since 1997………………………………...4

Appendix B: Summary of Performance for All Projects in the Last Two Reporting Periods……......6

Appendix C: Projects’ Results for Each Performance Measure……………...………………………8

Appendix D: Individual Project Results for All Projects in the Last Two Reporting Periods…..….26




                                                                                               3
∆       A P P E N D I X               ~     A



                              Summary of Performance for All Projects Since 1997

The following table provides the overall performance measure results for all 62 projects that have ever operated since 1997.

Cumulative totals since 1997 are no longer reported for performance measure 9.

Total savings to Medicaid, beneficiaries, and other entities were not broken out prior to July 2003. Therefore, this table does not
contain data for performance measures 15A, 15B, and 15C.




                                                                                                                                      4
  A   P    P E N D       I X ~     A




                             Summary of Peformance for All Projects Since 1997
                                              OUTPUT MEASURES
       1   Number of training sessions conducted to train new volunteers                                        6,758
       2   Number of new volunteers trained                                                                    45,626
       3   Number of media events conducted                                                                  109,186
       4   Number of community education events conducted                                                      25,879
                                             OUTCOME MEASURES
       5   Number of volunteers who, for the first time, conducted activities to educate beneficiaries         17,314
       6   Number of group sessions for beneficiaries led by volunteers                                        35,758
       7   Number of beneficiaries who attended group sessions led by volunteers                            1,393,954
       8   Number of one-on-one sessions held between beneficiaries and volunteers                           419,654
  7+8      Total number of beneficiaries educated                                                           1,813,608
       9   Estimated number of people reached by media events                                                     NA
      10   Estimated number of people reached by community education events                                14,666,298
      11   Number of complaints received attributable to the project                                           40,747
      12   Number of complaints referred for follow-up                                                          8,908
      13   Number of complaints that resulted in some action                                                    4,037
      14   Medicare funds recovered attributable to the project                                            $3,945,567
   15A     Medicaid funds recovered attributable to the project                                                   NA
   15B     Savings to beneficiaries attributable to the project                                                   NA
   15C     Other savings attributable to the project                                                              NA
TOTAL
   15      Total Medicaid funds, beneficiary savings and other savings                                   $100,014,534
14 + 15    Total savings attributable to the project                                                     $103,960,101



                                                                                                                   5
 ∆        A P P E N D I X              ~     B




            Summary of Performance for All Projects in the Last Two Reporting Periods

The following table provides data for the 58 projects that operated from July through December 2003. Note that one of these projects,
North Carolina – Division of Aging, did not receive funding after June 30, 2003, but continued operating until January 2004. Fifty-
seven projects operated in the current reporting period, January through June 2004.




                                                                                                                                    6
A P P E N D          I X ~ B




         Summary of Performance for All Projects in the Last Two Reporting Periods
                                                                                                                                         Change in Last
                                                                                         July – Dec. ‘03         Jan. – June ‘04           6 Months
                                   OUTPUT MEASURES
           1   Number of training sessions conducted to train new volunteers                            560                     648                      88
           2   Number of new volunteers trained                                                       2,511                   3,380                     869
           3   Number of media events conducted                                                      34,705                  16,815                 -17,890
           4   Number of community education events conducted                                         2,369                   3,733                   1,364
                                  OUTCOME MEASURES
           5   Number of volunteers who, for the first time, conducted activities
               to educate beneficiaries                                                               1,565                    1,845                     260
           6   Number of group sessions for beneficiaries led by volunteers                           3,639                    4,704                   1,065
           7   Number of beneficiaries who attended group sessions led by
               volunteers                                                                          119,141                 170,170                   51,029
           8   Number of one-on-one sessions held between beneficiaries and
               volunteers                                                                           74,594                  77,826                    3,232
       7+8     Total number of beneficiaries educated                                              193,735                 247,996                   54,261
           9   Estimated number of people reached by media events                              36,187,705         1,479,857,9511           1,443,670,246
          10   Estimated number of people reached by community education
               events                                                                            1,193,000                 641,430                -551,570
        11     Number of complaints received attributable to the project                             4,638                   2,984                  -1,654
        12     Number of complaints referred for follow-up                                           1,205                     522                    -683
        13     Number of complaints that resulted in some action                                       638                     195                    -443
        14     Medicare funds recovered attributable to the project                               $151,450                 $42,223               -$109,227
      15A      Medicaid funds recovered attributable to the project                                     $0                $200,000                $200,000
      15B      Savings to beneficiaries attributable to the project                               $260,100                $206,867                -$53,233
      15C      Other savings attributable to the project                                                $0                 $29,037                 $29,037
 TOTAL 15      Total Medicaid funds, beneficiary savings and other savings                        $260,100                $435,904                $175,804
   14 + 15     Total savings attributable to the project                                          $411,550                $478,127                 $66,577

 1
   One project reported 1.4 billion people reached by media events. Note that this number is calculated by adding the average number of viewers reached each
 time an advertisement is aired and the number of readers reached for each individual printed advertisement.
                                                                                                                                                               7
∆      A P P E N D I X               ~     C


                                Projects’ Results for Each Performance Measure

The following tables provide the results for each performance measure for each of the 58 Senior Medicare Patrol Projects.

One project, North Carolina – Division of Aging, ceased operating at the end of 2003. Therefore, data are not reported for this project
for January through June 2004.

Please note that performance measure 9, “Estimated number of people reached by media events,” is calculated by adding the average
number of viewers reached each time an advertisement is aired and the number of readers reached for each individual printed
advertisement.




                                                                                                                                      8
A    P     P E N D     I X ~    C

                  PERFORMANCE MEASURE 1: Number of Training Sessions Conducted to Train New Volunteers
                          Prior 6 Months        Current 6 Months                           Prior 6 Months         Current 6 Months
                         July – December         January – June                           July – December          January – June
                               2003                  2004                                       2003                   2004
    Alabama                                18                      42    Nebraska                             4                   3
    Alaska                                  0                      13    Nevada                               4                   4
    Arizona                                13                      19    New Hampshire                        1                   1
    Arkansas                                5                       4    New Jersey                           3                   1
    California                              6                       6    New Mexico                           5                  14
    Colorado                                2                       1    New York                            27                  56
    Connecticut                            16                      16    NC – DOA                             0                  NA
    Delaware                                3                       3    NC – DOI                             0                  16
    DC – AARP                               0                       0    North Dakota                         5                  10
    DC – FH                                 5                       5    Ohio – COAAA                         2                   0
    Florida                                 7                       2    Ohio – PSI                           1                   1
    Georgia – ARC                           3                       2    Oklahoma                             4                  10
    Georgia – DHR                          25                       4    Oregon                               7                  16
    Hawaii                                  4                       8    Pennsylvania                         5                   1
    Idaho                                  14                      13    Puerto Rico                          6                   4
    Illinois                                6                      12    Rhode Island                         1                   0
    Indiana                                 6                       7    South Carolina                       0                   4
    Iowa                                   42                       6    South Dakota                         1                   0
    Kansas                                  0                       2    Tennessee                            4                   3
    Kentucky                                5                      14    Texas – BBBEF                        3                   0
    Louisiana                               2                       2    Texas – NHCOA                        2                  42
    Maine                                  16                      19    Utah                                18                   6
    Maryland                               25                      18    Vermont                              0                   2
    Massachusetts                           8                       8    Virginia                             3                   4
    Michigan                               13                       2    Washington                         173                 162
    Minnesota                               5                       4    WV – AARP                            0                   1
    Mississippi                            19                      33    WI – CWAG                            4                   8
    Missouri                                1                       8    WI – GLITC                           0                   1
    Montana                                 7                       4    Wyoming                              1                   1

                 PERFORMANCE MEASURE 1                     July – Dec. ‘03                            Jan. – June ‘04
                                TOTAL                           560                                         648
                                                                                                                                      9
A    P     P E N D     I X ~   C

                               PERFORMANCE MEASURE 2: Number of New Volunteers Trained
                         Prior 6 Months         Current 6 Months                           Prior 6 Months         Current 6 Months
                        July – December          January – June                           July – December          January – June
                              2003                   2004                                       2003                   2004
    Alabama                               111                   218      Nebraska                            26                   11
    Alaska                                  0                     2      Nevada                               5                    1
    Arizona                                15                    39      New Hampshire                        9                   36
    Arkansas                               24                    14      New Jersey                          38                   35
    California                             73                   187      New Mexico                           8                   15
    Colorado                               20                     5      New York                            61                  264
    Connecticut                           244                   226      NC – DOA                             2                   NA
    Delaware                                2                    19      NC – DOI                             0                   75
    DC – AARP                               0                     0      North Dakota                        45                   57
    DC – FH                                 4                     4      Ohio – COAAA                        25                    0
    Florida                                56                    34      Ohio – PSI                          14                    7
    Georgia – ARC                           2                     5      Oklahoma                            30                  237
    Georgia – DHR                          84                    36      Oregon                              38                   71
    Hawaii                                  6                    59      Pennsylvania                        23                    5
    Idaho                                   9                    19      Puerto Rico                        117                    6
    Illinois                               29                     6      Rhode Island                         5                    0
    Indiana                                87                   131      South Carolina                       0                   15
    Iowa                                   54                     6      South Dakota                         3                    0
    Kansas                                  0                    58      Tennessee                           39                   55
    Kentucky                               18                    45      Texas – BBBEF                       80                    0
    Louisiana                              46                    98      Texas – NHCOA                       12                   53
    Maine                                  91                    25      Utah                                51                  288
    Maryland                                0                     4      Vermont                              0                    5
    Massachusetts                          73                    40      Virginia                            15                   27
    Michigan                              186                    13      Washington                         329                  268
    Minnesota                              26                    65      WV – AARP                            0                   25
    Mississippi                           212                   262      WI – CWAG                           15                   89
    Missouri                               10                    90      WI – GLITC                           0                    6
    Montana                                35                     8      Wyoming                              4                   11

                 PERFORMANCE MEASURE 2                     July – Dec. ‘03                            Jan. – June ‘04
                                TOTAL                          2,511                                       3,380
                                                                                                                                       10
A    P     P E N D     I X ~   C

                               PERFORMANCE MEASURE 3: Number of Media Events Conducted
                         Prior 6 Months       Current 6 Months                           Prior 6 Months            Current 6 Months
                        July – December        January – June                           July – December             January – June
                              2003                 2004                                       2003                      2004
    Alabama                           2,642                   95       Nebraska                         26                         81
    Alaska                                4                    7       Nevada                        4,150                         12
    Arizona                              38                   24       New Hampshire                    18                         16
    Arkansas                             10                   17       New Jersey                        5                          0
    California                            8                   26       New Mexico                        5                          9
    Colorado                             10                    7       New York                          9                         63
    Connecticut                          23                   30       NC – DOA                          6                         NA
    Delaware                             18                  171       NC – DOI                          0                         14
    DC – AARP                             3                    2       North Dakota                      1                         14
    DC – FH                           3,848                    4       Ohio – COAAA                    174                        165
    Florida                              28                   40       Ohio – PSI                       60                        627
    Georgia – ARC                        21                   25       Oklahoma                          2                          9
    Georgia – DHR                        35                    7       Oregon                       17,003                         20
    Hawaii                              107                    2       Pennsylvania                      6                          8
    Idaho                                43                   29       Puerto Rico                       3                        491
    Illinois                          2,446                1,219       Rhode Island                  3,071                      1,281
    Indiana                               6                  143       South Carolina                    4                          2
    Iowa                                198                2,064       South Dakota                      0                         13
    Kansas                                0                    4       Tennessee                        43                         49
    Kentucky                             92                  252       Texas – BBBEF                     4                          3
    Louisiana                             9                    4       Texas – NHCOA                     8                         14
    Maine                                51                   65       Utah                              1                          2
    Maryland                             69                   56       Vermont                           0                          4
    Massachusetts                        28                   58       Virginia                         26                         28
    Michigan                              0                   10       Washington                      137                        124
    Minnesota                             0                   10       WV – AARP                         0                          8
    Mississippi                          10                1,910       WI – CWAG                        15                      1,160
    Missouri                              3                    9       WI – GLITC                        0                          3
    Montana                             173                6,301       Wyoming                           5                          4

                 PERFORMANCE MEASURE 3                   July – Dec. ‘03                            Jan. – June ‘04
                                TOTAL                       34,705                                        16,815
                                                                                                                                        11
A    P     P E N D     I X ~   C

                      PERFORMANCE MEASURE 4: Number of Community Education Events Conducted
                         Prior 6 Months         Current 6 Months                           Prior 6 Months         Current 6 Months
                        July – December          January – June                           July – December          January – June
                              2003                   2004                                       2003                   2004
    Alabama                               105                   198      Nebraska                            43                   62
    Alaska                                  7                    13      Nevada                              12                   20
    Arizona                               103                   144      New Hampshire                       45                   52
    Arkansas                               10                    30      New Jersey                           9                   10
    California                             36                    52      New Mexico                          15                   56
    Colorado                               20                    31      New York                            15                  115
    Connecticut                           112                   116      NC – DOA                            13                   NA
    Delaware                               38                    17      NC – DOI                             0                   55
    DC – AARP                               7                     8      North Dakota                        32                    2
    DC – FH                                30                    20      Ohio – COAAA                       201                  203
    Florida                                58                    64      Ohio – PSI                           9                   26
    Georgia – ARC                          10                    41      Oklahoma                             9                   32
    Georgia – DHR                         133                    55      Oregon                              19                   93
    Hawaii                                  6                     9      Pennsylvania                        10                   21
    Idaho                                  40                    85      Puerto Rico                         36                   22
    Illinois                               47                   276      Rhode Island                        13                    7
    Indiana                                90                    87      South Carolina                      28                   11
    Iowa                                   94                   112      South Dakota                         2                   63
    Kansas                                  0                     2      Tennessee                           52                  107
    Kentucky                               34                    75      Texas – BBBEF                       29                   64
    Louisiana                              12                    12      Texas – NHCOA                       10                   78
    Maine                                  67                    59      Utah                                27                   37
    Maryland                               51                    53      Vermont                              0                   28
    Massachusetts                         201                   250      Virginia                            64                  153
    Michigan                               13                    50      Washington                          62                   45
    Minnesota                              83                   212      WV – AARP                            0                    8
    Mississippi                            98                   170      WI – CWAG                           32                   10
    Missouri                               15                     8      WI – GLITC                          11                   22
    Montana                                40                    66      Wyoming                             11                   16

                 PERFORMANCE MEASURE 4                     July – Dec. ‘03                            Jan. – June ‘04
                                TOTAL                          2,369                                       3,733
                                                                                                                                       12
A    P     P E N D     I X ~   C

         PERFORMANCE MEASURE 5: Number of Volunteers Who, for the First Time, Conducted Activities to Educate
                                              Beneficiaries
                         Prior 6 Months         Current 6 Months                           Prior 6 Months         Current 6 Months
                        July – December          January – June                           July – December          January – June
                              2003                   2004                                       2003                   2004
    Alabama                                88                      46    Nebraska                            33                   34
    Alaska                                  0                       2    Nevada                               3                    0
    Arizona                                15                      39    New Hampshire                        9                    5
    Arkansas                                6                      10    New Jersey                          12                    3
    California                             52                      16    New Mexico                           8                   15
    Colorado                                5                       6    New York                           341                  420
    Connecticut                           113                      18    NC – DOA                             2                   NA
    Delaware                                2                      12    NC – DOI                             0                    4
    DC – AARP                               0                       0    North Dakota                         0                   10
    DC – FH                                 4                       2    Ohio – COAAA                        15                    9
    Florida                                10                       7    Ohio – PSI                          16                    7
    Georgia – ARC                           2                       3    Oklahoma                             2                   11
    Georgia – DHR                          20                       8    Oregon                              38                   71
    Hawaii                                  3                       5    Pennsylvania                        12                    5
    Idaho                                   9                      11    Puerto Rico                          9                    2
    Illinois                               12                      86    Rhode Island                         0                    0
    Indiana                                 6                       7    South Carolina                      10                    0
    Iowa                                   41                       6    South Dakota                         2                    5
    Kansas                                  0                       6    Tennessee                           18                   55
    Kentucky                                9                      29    Texas – BBBEF                       78                    0
    Louisiana                               3                       2    Texas – NHCOA                        0                   17
    Maine                                  55                      13    Utah                                31                  345
    Maryland                                0                       0    Vermont                              0                    0
    Massachusetts                          17                      17    Virginia                             3                    4
    Michigan                               13                      15    Washington                         329                  268
    Minnesota                              19                       3    WV – AARP                            0                    0
    Mississippi                            46                      63    WI – CWAG                            4                    4
    Missouri                               10                      90    WI – GLITC                           0                    0
    Montana                                29                      24    Wyoming                              1                    5

                 PERFORMANCE MEASURE 5                     July – Dec. ‘03                            Jan. – June ‘04
                                TOTAL                          1,565                                       1,845                       13
A    P     P E N D     I X ~    C

                   PERFORMANCE MEASURE 6: Number of Group Sessions for Beneficiaries Led by Volunteers
                          Prior 6 Months         Current 6 Months                           Prior 6 Months         Current 6 Months
                         July – December          January – June                           July – December          January – June
                               2003                   2004                                       2003                   2004
    Alabama                                220                   309      Nebraska                            55                   67
    Alaska                                  20                     0      Nevada                              12                   14
    Arizona                                 96                     7      New Hampshire                       46                   48
    Arkansas                                 8                    44      New Jersey                          68                   64
    California                             244                   207      New Mexico                          23                   38
    Colorado                                43                    92      New York                            45                  145
    Connecticut                             17                    16      NC – DOA                            19                   NA
    Delaware                                73                    57      NC – DOI                             0                   15
    DC – AARP                               25                    29      North Dakota                         0                    0
    DC – FH                                 16                    16      Ohio – COAAA                        54                   40
    Florida                                 29                    14      Ohio – PSI                          30                   57
    Georgia – ARC                           61                   109      Oklahoma                             2                   11
    Georgia – DHR                          247                    15      Oregon                               8                   76
    Hawaii                                  20                    45      Pennsylvania                        78                  166
    Idaho                                  180                   149      Puerto Rico                         31                   77
    Illinois                               119                   214      Rhode Island                         7                   27
    Indiana                                  7                    88      South Carolina                      11                   94
    Iowa                                   457                   325      South Dakota                         8                    6
    Kansas                                   0                     6      Tennessee                          140                  120
    Kentucky                               150                   292      Texas – BBBEF                       39                   17
    Louisiana                                2                     5      Texas – NHCOA                       34                   40
    Maine                                   70                   155      Utah                                23                   26
    Maryland                               119                   205      Vermont                              0                    0
    Massachusetts                          238                     0      Virginia                            41                   83
    Michigan                                 0                    44      Washington                         101                  289
    Minnesota                               19                    34      WV – AARP                            0                    0
    Mississippi                            113                   445      WI – CWAG                           41                   77
    Missouri                                15                    38      WI – GLITC                           0                    0
    Montana                                112                   139      Wyoming                              3                    8

                 PERFORMANCE MEASURE 6                      July – Dec. ‘03                            Jan. – June ‘04
                                TOTAL                           3,639                                       4,704
                                                                                                                                        14
A    P     P E N D     I X ~   C

            PERFORMANCE MEASURE 7: Number of Beneficiaries Who Attended Group Sessions Led by Volunteers
                         Prior 6 Months       Current 6 Months                           Prior 6 Months        Current 6 Months
                        July – December        January – June                           July – December         January – June
                              2003                 2004                                       2003                  2004
    Alabama                          11,719                13,505      Nebraska                       1,759                 1,938
    Alaska                            1,000                     0      Nevada                           924                 1,050
    Arizona                           4,056                 4,056      New Hampshire                  1,125                 1,174
    Arkansas                            434                 1,668      New Jersey                     3,852                 4,291
    California                        8,890                 7,977      New Mexico                       999                 1,140
    Colorado                          1,290                 2,232      New York                       1,020                 3,393
    Connecticut                       1,701                   467      NC – DOA                       1,115                    NA
    Delaware                          1,608                 1,179      NC – DOI                           0                   391
    DC – AARP                           675                   756      North Dakota                       0                     0
    DC – FH                             480                   441      Ohio – COAAA                     738                   985
    Florida                             724                   885      Ohio – PSI                       716                 1,375
    Georgia – ARC                     1,833                 2,771      Oklahoma                          50                   200
    Georgia – DHR                     5,998                   410      Oregon                           240                12,442
    Hawaii                              645                 1,683      Pennsylvania                   2,962                11,876
    Idaho                            12,492                 1,210      Puerto Rico                    4,871                 2,172
    Illinois                          2,698                12,562      Rhode Island                     181                   405
    Indiana                              87                 2,178      South Carolina                 2,391                 2,464
    Iowa                                982                 6,272      South Dakota                     333                   320
    Kansas                                0                    75      Tennessee                      7,075                 7,585
    Kentucky                          3,927                 8,828      Texas – BBBEF                  1,083                   721
    Louisiana                            31                    47      Texas – NHCOA                  1,218                 1,670
    Maine                             1,174                 2,666      Utah                             689                 1,015
    Maryland                          3,816                 6,922      Vermont                            0                     0
    Massachusetts                         0                     0      Virginia                       3,035                 3,921
    Michigan                              0                 1,829      Washington                     4,321                12,000
    Minnesota                           888                    61      WV – AARP                          0                     0
    Mississippi                       1,841                 7,772      WI – CWAG                      6,379                 3,946
    Missouri                            287                 1,164      WI – GLITC                         0                     0
    Montana                           2,769                 3,904      Wyoming                           20                   176

                 PERFORMANCE MEASURE 7                   July – Dec. ‘03                            Jan. – June ‘04
                                TOTAL                       119,141                                    170,170
                                                                                                                                    15
A    P     P E N D     I X ~   C

           PERFORMANCE MEASURE 8: Number of One-on-One Sessions Held Between Beneficiaries and Volunteers
                         Prior 6 Months       Current 6 Months                           Prior 6 Months        Current 6 Months
                        July – December        January – June                           July – December         January – June
                              2003                 2004                                       2003                  2004
    Alabama                           2,978                 5,828      Nebraska                        409                    234
    Alaska                               35                     1      Nevada                           12                     12
    Arizona                              23                    23      New Hampshire                 3,659                  2,813
    Arkansas                              6                     3      New Jersey                      120                    150
    California                            8                    18      New Mexico                   15,311                 14,974
    Colorado                             77                    56      New York                      4,135                  5,593
    Connecticut                          33                    13      NC – DOA                          5                     NA
    Delaware                             40                    96      NC – DOI                          0                     17
    DC – AARP                            52                     0      North Dakota                      0                     20
    DC – FH                           1,163                   707      Ohio – COAAA                    113                    236
    Florida                              99                    49      Ohio – PSI                       57                     19
    Georgia – ARC                       205                   226      Oklahoma                          2                     10
    Georgia – DHR                        94                     3      Oregon                        3,265                    285
    Hawaii                                0                     2      Pennsylvania                     50                    471
    Idaho                               642                   647      Puerto Rico                     270                    360
    Illinois                             13                   100      Rhode Island                      0                      0
    Indiana                              28                   123      South Carolina                   49                      7
    Iowa                                 27                    31      South Dakota                    199                    162
    Kansas                                0                    24      Tennessee                        90                    169
    Kentucky                          1,008                 1,853      Texas – BBBEF                    15                     28
    Louisiana                            27                    89      Texas – NHCOA                    43                    364
    Maine                               118                   346      Utah                            166                    455
    Maryland                          1,483                 1,648      Vermont                           0                      0
    Massachusetts                    14,320                 6,320      Virginia                          0                      0
    Michigan                             11                    11      Washington                   22,169                 29,636
    Minnesota                             9                     7      WV – AARP                         0                      0
    Mississippi                       1,029                 1,882      WI – CWAG                        69                     13
    Missouri                             58                    81      WI – GLITC                        0                      0
    Montana                             182                   769      Wyoming                         618                    842

                 PERFORMANCE MEASURE 8                   July – Dec. ‘03                            Jan. – June ‘04
                                TOTAL                        74,594                                     77,826
                                                                                                                                    16
A    P     P E N D     I X ~   C

                      PERFORMANCE MEASURE 9: Estimated Number of People Reached by Media Events
                         Prior 6 Months       Current 6 Months                           Prior 6 Months        Current 6 Months
                        July – December        January – June                           July – December         January – June
                              2003                 2004                                       2003                  2004
    Alabama                         175,227               402,426      Nebraska                     948,403             2,849,444
    Alaska                            3,500               500,000      Nevada                       935,500               135,000
    Arizona                          79,995                47,768      New Hampshire                142,800               300,000
    Arkansas                        220,500               737,428      New Jersey                 1,201,647                     0
    California                    2,483,950             6,011,000      New Mexico                   348,000               325,000
    Colorado                         75,120               149,200      New York                      48,737               452,700
    Connecticut                     374,015               619,372      NC – DOA                       1,180                    NA
    Delaware                      1,030,650            11,000,000      NC – DOI                           0               231,218
    DC – AARP                       690,000            18,000,000      North Dakota                   7,500               100,000
    DC – FH                       2,497,070             1,248,535      Ohio – COAAA               1,095,460             1,205,879
    Florida                       3,000,860             3,066,896      Ohio – PSI                 1,003,957             3,133,121
    Georgia – ARC                    73,859               279,850      Oklahoma                       4,200               307,005
    Georgia – DHR                   412,100               391,725      Oregon                       167,000             3,209,414
    Hawaii                          940,000               500,000      Pennsylvania                  10,000             1,106,210
    Idaho                           323,388               395,970      Puerto Rico                  175,000             1,055,300
    Illinois                        508,800               763,736      Rhode Island               6,000,000             6,300,000
    Indiana                          28,438             1,428,266      South Carolina                 1,620                51,091
    Iowa                            312,191        1,383,664,631       South Dakota                       0                 1,151
    Kansas                                0                 8,000      Tennessee                    357,540             3,640,893
    Kentucky                      1,083,054             4,734,027      Texas – BBBEF                107,000               200,000
    Louisiana                       250,000               100,000      Texas – NHCOA                320,000               653,000
    Maine                           748,874             1,205,839      Utah                             100                   300
    Maryland                        350,845               446,952      Vermont                            0               193,000
    Massachusetts                   140,000               300,000      Virginia                   1,819,000             1,274,413
    Michigan                              0             1,070,771      Washington                 4,880,153             5,488,404
    Minnesota                             0               979,687      WV – AARP                          0             1,317,579
    Mississippi                      16,694               953,075      WI – CWAG                     33,370             6,028,020
    Missouri                        100,000               271,500      WI – GLITC                         0                   519
    Montana                         550,408               917,621      Wyoming                      110,000               105,015

                 PERFORMANCE MEASURE 9                   July – Dec. ‘03                            Jan. – June ‘04
                                TOTAL                     36,187,705                                1,479,857,951
                                                                                                                                    17
A    P     P E N D     I X ~   C

               PERFORMANCE MEASURE 10: Estimated Number of People Reached by Community Education Events
                         Prior 6 Months       Current 6 Months                           Prior 6 Months        Current 6 Months
                        July – December        January – June                           July – December         January – June
                              2003                 2004                                       2003                  2004
    Alabama                          30,634                72,503      Nebraska                    164,706                 23,466
    Alaska                            3,744                   130      Nevada                         9,150                10,455
    Arizona                          40,008                 9,671      New Hampshire                 10,800                10,800
    Arkansas                          1,902                 2,425      New Jersey                     5,403                 5,750
    California                        5,436                23,768      New Mexico                    11,825                18,715
    Colorado                          1,305                   836      New York                      57,945                15,501
    Connecticut                       7,396                13,287      NC – DOA                         325                    NA
    Delaware                          4,070                 1,829      NC – DOI                           0                12,496
    DC – AARP                         5,650                 6,150      North Dakota                   1,050                   141
    DC – FH                         150,000                85,000      Ohio – COAAA                  62,198                64,259
    Florida                           8,157                 5,435      Ohio – PSI                     4,140                   703
    Georgia – ARC                       835                 3,430      Oklahoma                       9,322                 9,317
    Georgia – DHR                    45,946                 4,773      Oregon                         5,005                   994
    Hawaii                           27,000                 4,200      Pennsylvania                     409                 1,226
    Idaho                             7,860                 9,649      Puerto Rico                      219                 1,167
    Illinois                          4,582                19,462      Rhode Island                  50,000                15,000
    Indiana                          17,262                 9,470      South Carolina                   435                 3,950
    Iowa                            109,517                 3,767      South Dakota                     650                 1,859
    Kansas                                0                 1,000      Tennessee                      8,659                17,644
    Kentucky                          2,727                 5,291      Texas – BBBEF                    568                 2,885
    Louisiana                           286                   244      Texas – NHCOA               210,000                  2,745
    Maine                            11,903                 5,397      Utah                           7,080                 1,496
    Maryland                         18,091                 8,804      Vermont                            0                   415
    Massachusetts                     7,676                20,000      Virginia                      22,402                38,862
    Michigan                          2,853                   475      Washington                    12,639                13,415
    Minnesota                         2,098                11,965      WV – AARP                          0                 3,360
    Mississippi                      10,047                25,724      WI – CWAG                      4,764                 1,125
    Missouri                            287                 1,000      WI – GLITC                       281                   585
    Montana                           4,532                 6,903      Wyoming                        1,221                   511

               PERFORMANCE MEASURE 10                    July – Dec. ‘03                            Jan. – June ‘04
                               TOTAL                       1,193,000                                   641,430
                                                                                                                                    18
A    P     P E N D    I X ~   C

                  PERFORMANCE MEASURE 11: Number of Complaints Received Attributable to the Project
                        Prior 6 Months      Current 6 Months                           Prior 6 Months         Current 6 Months
                       July – December       January – June                           July – December          January – June
                             2003                2004                                       2003                   2004
    Alabama                           255                   365      Nebraska                            31                   11
    Alaska                              0                     1      Nevada                              25                   55
    Arizona                            78                    78      New Hampshire                        7                   25
    Arkansas                            9                    39      New Jersey                          30                   19
    California                         27                    21      New Mexico                          26                   42
    Colorado                           15                     8      New York                           839                  218
    Connecticut                        12                    43      NC – DOA                             0                   NA
    Delaware                           18                     7      NC – DOI                             1                   72
    DC – AARP                          60                    27      North Dakota                         1                    0
    DC – FH                            50                    25      Ohio – COAAA                         0                    7
    Florida                            95                    75      Ohio – PSI                          11                    4
    Georgia – ARC                       7                    11      Oklahoma                             6                    5
    Georgia – DHR                       6                     7      Oregon                               3                    0
    Hawaii                              3                    25      Pennsylvania                       100                  338
    Idaho                           2,236                   649      Puerto Rico                         28                   35
    Illinois                            6                    19      Rhode Island                         4                    7
    Indiana                             0                     4      South Carolina                       8                    1
    Iowa                               52                    44      South Dakota                         3                    0
    Kansas                              0                     2      Tennessee                           22                   32
    Kentucky                          163                   154      Texas – BBBEF                       14                   35
    Louisiana                          10                     5      Texas – NHCOA                       56                   86
    Maine                              11                    15      Utah                                35                   40
    Maryland                           67                    21      Vermont                              0                    1
    Massachusetts                      31                     5      Virginia                            30                   26
    Michigan                           11                    11      Washington                          12                    5
    Minnesota                           0                    14      WV – AARP                            0                    0
    Mississippi                        26                    85      WI – CWAG                           27                   30
    Missouri                            5                     5      WI – GLITC                           5                    0
    Montana                            41                   110      Wyoming                             20                   15

               PERFORMANCE MEASURE 11                  July – Dec. ‘03                            Jan. – June ‘04
                               TOTAL                       4,638                                       2,984
                                                                                                                                   19
A    P     P E N D    I X ~   C

                       PERFORMANCE MEASURE 12: Number of Complaints Referred for Follow-up
                        Prior 6 Months         Current 6 Months                           Prior 6 Months         Current 6 Months
                       July – December          January – June                           July – December          January – June
                             2003                   2004                                       2003                   2004
    Alabama                               38                      83    Nebraska                            11                  4
    Alaska                                 0                       1    Nevada                              11                 11
    Arizona                                4                       7    New Hampshire                        0                  0
    Arkansas                               5                       9    New Jersey                           0                  0
    California                             8                      18    New Mexico                          26                 30
    Colorado                               3                       2    New York                           271                 36
    Connecticut                            4                      23    NC – DOA                             0                 NA
    Delaware                               8                       1    NC – DOI                             1                 10
    DC – AARP                              4                       0    North Dakota                         1                  0
    DC – FH                                0                       0    Ohio – COAAA                         0                  7
    Florida                                3                       3    Ohio – PSI                           1                  0
    Georgia – ARC                          2                       9    Oklahoma                             3                  5
    Georgia – DHR                          1                       4    Oregon                               2                  0
    Hawaii                                 0                       0    Pennsylvania                         5                  6
    Idaho                                670                       2    Puerto Rico                         21                 27
    Illinois                               4                      17    Rhode Island                         3                  5
    Indiana                                0                       0    South Carolina                       2                  1
    Iowa                                  11                      20    South Dakota                         0                  0
    Kansas                                 0                       2    Tennessee                            4                 24
    Kentucky                               0                       6    Texas – BBBEF                        0                 28
    Louisiana                              3                       2    Texas – NHCOA                       15                 26
    Maine                                  4                       7    Utah                                10                 16
    Maryland                               2                       0    Vermont                              0                  1
    Massachusetts                          3                       0    Virginia                            11                 22
    Michigan                               5                       2    Washington                           3                  3
    Minnesota                              0                      11    WV – AARP                            0                  0
    Mississippi                            8                       0    WI – CWAG                            9                 11
    Missouri                               5                       5    WI – GLITC                           0                  0
    Montana                                0                      14    Wyoming                              0                  1

               PERFORMANCE MEASURE 12                     July – Dec. ‘03                            Jan. – June ‘04
                               TOTAL                          1,205                                        522
                                                                                                                                    20
A    P     P E N D    I X ~   C

                     PERFORMANCE MEASURE 13: Number of Complaints that Resulted in Some Action
                        Prior 6 Months         Current 6 Months                           Prior 6 Months        Current 6 Months
                       July – December          January – June                           July – December         January – June
                             2003                   2004                                       2003                  2004
    Alabama                                8                      15    Nebraska                            3                  4
    Alaska                                 0                       0    Nevada                              0                  0
    Arizona                                0                       0    New Hampshire                       0                  0
    Arkansas                               0                       0    New Jersey                          0                  0
    California                             4                       2    New Mexico                         14                 39
    Colorado                               0                       0    New York                           71                 34
    Connecticut                            0                       0    NC – DOA                            0                 NA
    Delaware                               0                       0    NC – DOI                            0                  2
    DC – AARP                              0                       0    North Dakota                        0                  0
    DC – FH                                0                       0    Ohio – COAAA                        0                  0
    Florida                                0                       0    Ohio – PSI                          2                  0
    Georgia – ARC                          0                       0    Oklahoma                            2                  0
    Georgia – DHR                          2                       3    Oregon                              0                  0
    Hawaii                                 1                       0    Pennsylvania                        1                  3
    Idaho                                480                       0    Puerto Rico                         1                  3
    Illinois                               0                       3    Rhode Island                        0                  0
    Indiana                                0                       0    South Carolina                      0                  1
    Iowa                                   2                       4    South Dakota                        3                  0
    Kansas                                 0                       0    Tennessee                           8                  7
    Kentucky                               0                       3    Texas – BBBEF                       7                 13
    Louisiana                              1                       1    Texas – NHCOA                       0                 34
    Maine                                  2                       4    Utah                               10                  4
    Maryland                               0                       0    Vermont                             0                  1
    Massachusetts                          0                       0    Virginia                            0                  0
    Michigan                               0                       1    Washington                          3                  0
    Minnesota                              0                       9    WV – AARP                           0                  0
    Mississippi                           10                       0    WI – CWAG                           2                  4
    Missouri                               1                       0    WI – GLITC                          0                  0
    Montana                                0                       0    Wyoming                             0                  1

               PERFORMANCE MEASURE 13                     July – Dec. ‘03                            Jan. – June ‘04
                               TOTAL                           638                                         195
                                                                                                                                   21
A    P     P E N D    I X ~   C

                     PERFORMANCE MEASURE 14: Medicare Funds Recovered Attributable to the Project
                        Prior 6 Months      Current 6 Months                           Prior 6 Months        Current 6 Months
                       July – December       January – June                           July – December         January – June
                             2003                2004                                       2003                  2004
    Alabama                            $0                      $0    Nebraska                         $0                     $0
    Alaska                             $0                      $0    Nevada                           $0                     $0
    Arizona                            $0                      $0    New Hampshire                    $0                     $0
    Arkansas                           $0                      $0    New Jersey                       $0                     $0
    California                         $0                      $0    New Mexico                       $0                     $0
    Colorado                           $0                      $0    New York                     $1,696                $22,005
    Connecticut                        $0                      $0    NC – DOA                         $0                     NA
    Delaware                           $0                      $0    NC – DOI                         $0                     $0
    DC – AARP                          $0                      $0    North Dakota                     $0                     $0
    DC – FH                            $0                      $0    Ohio – COAAA                     $0                     $0
    Florida                            $0                      $0    Ohio – PSI                    $264                      $0
    Georgia – ARC                      $0                      $0    Oklahoma                         $0                     $0
    Georgia – DHR                      $0                      $0    Oregon                           $0                     $0
    Hawaii                             $0                      $0    Pennsylvania                  $161                      $0
    Idaho                              $0                      $0    Puerto Rico                     $55                 $1,139
    Illinois                           $0                      $0    Rhode Island                     $0                     $0
    Indiana                            $0                      $0    South Carolina                   $0                     $0
    Iowa                               $0                      $0    South Dakota                     $0                     $0
    Kansas                             $0                      $0    Tennessee                        $0                  $114
    Kentucky                           $0                      $0    Texas – BBBEF               $64,978                $18,926
    Louisiana                     $83,787                      $0    Texas – NHCOA                    $0                     $0
    Maine                              $0                      $0    Utah                             $0                     $0
    Maryland                           $0                      $0    Vermont                          $0                     $0
    Massachusetts                      $0                      $0    Virginia                         $0                     $0
    Michigan                           $0                      $0    Washington                       $0                     $0
    Minnesota                          $0                      $0    WV – AARP                        $0                     $0
    Mississippi                     $490                       $0    WI – CWAG                       $20                    $39
    Missouri                           $0                      $0    WI – GLITC                       $0                     $0
    Montana                            $0                      $0    Wyoming                          $0                     $0

               PERFORMANCE MEASURE 14                  July – Dec. ‘03                            Jan. – June ‘04
                               TOTAL                     $151,450                                    $42,223
                                                                                                                                  22
A    P     P E N D     I X ~   C

                     PERFORMANCE MEASURE 15A: Medicaid Funds Recovered Attributable to the Project
                         Prior 6 Months        Current 6 Months                           Prior 6 Months        Current 6 Months
                        July – December         January – June                           July – December         January – June
                              2003                  2004                                       2003                  2004
    Alabama                               $0                      $0    Nebraska                           $0                   $0
    Alaska                                $0                      $0    Nevada                             $0                   $0
    Arizona                               $0                      $0    New Hampshire                      $0                   $0
    Arkansas                              $0                      $0    New Jersey                         $0                   $0
    California                            $0                      $0    New Mexico                         $0             $200,000
    Colorado                              $0                      $0    New York                           $0                   $0
    Connecticut                           $0                      $0    NC – DOA                           $0                   NA
    Delaware                              $0                      $0    NC – DOI                           $0                   $0
    DC – AARP                             $0                      $0    North Dakota                       $0                   $0
    DC – FH                               $0                      $0    Ohio – COAAA                       $0                   $0
    Florida                               $0                      $0    Ohio – PSI                         $0                   $0
    Georgia – ARC                         $0                      $0    Oklahoma                           $0                   $0
    Georgia – DHR                         $0                      $0    Oregon                             $0                   $0
    Hawaii                                $0                      $0    Pennsylvania                       $0                   $0
    Idaho                                 $0                      $0    Puerto Rico                        $0                   $0
    Illinois                              $0                      $0    Rhode Island                       $0                   $0
    Indiana                               $0                      $0    South Carolina                     $0                   $0
    Iowa                                  $0                      $0    South Dakota                       $0                   $0
    Kansas                                $0                      $0    Tennessee                          $0                   $0
    Kentucky                              $0                      $0    Texas – BBBEF                      $0                   $0
    Louisiana                             $0                      $0    Texas – NHCOA                      $0                   $0
    Maine                                 $0                      $0    Utah                               $0                   $0
    Maryland                              $0                      $0    Vermont                            $0                   $0
    Massachusetts                         $0                      $0    Virginia                           $0                   $0
    Michigan                              $0                      $0    Washington                         $0                   $0
    Minnesota                             $0                      $0    WV – AARP                          $0                   $0
    Mississippi                           $0                      $0    WI – CWAG                          $0                   $0
    Missouri                              $0                      $0    WI – GLITC                         $0                   $0
    Montana                               $0                      $0    Wyoming                            $0                   $0

               PERFORMANCE MEASURE 15A                    July – Dec. ‘03                            Jan. – June ‘04
                                TOTAL                           $0                                     $200,000
                                                                                                                                     23
A    P     P E N D     I X ~   C

                      PERFORMANCE MEASURE 15B: Savings to Beneficiaries Attributable to the Project
                         Prior 6 Months      Current 6 Months                           Prior 6 Months        Current 6 Months
                        July – December       January – June                           July – December         January – June
                              2003                2004                                       2003                  2004
    Alabama                             $0               $10,465      Nebraska                        $0                      $0
    Alaska                              $0                    $0      Nevada                          $0                      $0
    Arizona                             $0                    $0      New Hampshire                   $0                      $0
    Arkansas                            $0                 $782       New Jersey                      $0                      $0
    California                          $0                    $0      New Mexico                $143,020                 $85,414
    Colorado                            $0                    $0      New York                        $0                      $0
    Connecticut                         $0                    $0      NC – DOA                        $0                      NA
    Delaware                            $0                    $0      NC – DOI                        $0                   $150
    DC – AARP                           $0                    $0      North Dakota                    $0                      $0
    DC – FH                             $0                    $0      Ohio – COAAA                    $0                      $0
    Florida                        $19,345                    $0      Ohio – PSI                      $0                      $0
    Georgia – ARC                       $0                    $0      Oklahoma                        $0                      $0
    Georgia – DHR                       $0                    $0      Oregon                          $0                   $808
    Hawaii                             $73                    $0      Pennsylvania                    $0                      $0
    Idaho                          $91,232               $71,491      Puerto Rico                     $0                      $0
    Illinois                            $0                    $0      Rhode Island                    $0                      $0
    Indiana                             $0                    $0      South Carolina                  $0                      $0
    Iowa                             $210                     $0      South Dakota                    $0                      $0
    Kansas                              $0                    $0      Tennessee                   $1,969                      $0
    Kentucky                        $1,815                    $0      Texas – BBBEF                   $0                      $0
    Louisiana                           $0                    $0      Texas – NHCOA                   $0                      $0
    Maine                               $0                $3,128      Utah                            $0                  $1,151
    Maryland                            $0                 $840       Vermont                         $0                      $0
    Massachusetts                       $0                    $0      Virginia                        $0                      $0
    Michigan                            $0                 $299       Washington                      $0                      $0
    Minnesota                           $0               $31,452      WV – AARP                       $0                      $0
    Mississippi                     $2,436                    $0      WI – CWAG                       $0                      $0
    Missouri                            $0                 $887       WI – GLITC                      $0                      $0
    Montana                             $0                    $0      Wyoming                         $0                      $0

               PERFORMANCE MEASURE 15B                  July – Dec. ‘03                            Jan. – June ‘04
                                TOTAL                     $260,100                                   $206,867                      24
A    P     P E N D     I X ~   C
                          PERFORMANCE MEASURE 15C: Other Savings Attributable to the Project
                         Prior 6 Months        Current 6 Months                           Prior 6 Months        Current 6 Months
                        July – December         January – June                           July – December         January – June
                              2003                  2004                                       2003                  2004
    Alabama                               $0                   $0       Nebraska                           $0                   $0
    Alaska                                $0                   $0       Nevada                             $0                   $0
    Arizona                               $0                   $0       New Hampshire                      $0                   $0
    Arkansas                              $0                   $0       New Jersey                         $0                   $0
    California                            $0                   $0       New Mexico                         $0                   $0
    Colorado                              $0                   $0       New York                           $0                   $0
    Connecticut                           $0                   $0       NC – DOA                           $0                   NA
    Delaware                              $0                   $0       NC – DOI                           $0                   $0
    DC – AARP                             $0                   $0       North Dakota                       $0                   $0
    DC – FH                               $0                   $0       Ohio – COAAA                       $0                   $0
    Florida                               $0                   $0       Ohio – PSI                         $0                   $0
    Georgia – ARC                         $0                   $0       Oklahoma                           $0                   $0
    Georgia – DHR                         $0                   $0       Oregon                             $0                   $0
    Hawaii                                $0                   $0       Pennsylvania                       $0                   $0
    Idaho                                 $0                   $0       Puerto Rico                        $0                   $0
    Illinois                              $0                   $0       Rhode Island                       $0                   $0
    Indiana                               $0                   $0       South Carolina                     $0                   $0
    Iowa                                  $0                   $0       South Dakota                       $0                   $0
    Kansas                                $0                   $0       Tennessee                          $0                   $0
    Kentucky                              $0                   $0       Texas – BBBEF                      $0                   $0
    Louisiana                             $0                   $0       Texas – NHCOA                      $0                   $0
    Maine                                 $0                   $0       Utah                               $0               $1,395
    Maryland                              $0                   $0       Vermont                            $0                   $0
    Massachusetts                         $0                   $0       Virginia                           $0                   $0
    Michigan                              $0                   $0       Washington                         $0                   $0
    Minnesota                             $0              $27,642       WV – AARP                          $0                   $0
    Mississippi                           $0                   $0       WI – CWAG                          $0                   $0
    Missouri                              $0                   $0       WI – GLITC                         $0                   $0
    Montana                               $0                   $0       Wyoming                            $0                   $0



               PERFORMANCE MEASURE 15C                    July – Dec. ‘03                            Jan. – June ‘04
                                TOTAL                           $0                                      $29,037                      25
∆      A P P E N D I X               ~     D



            Individual Project Results for All Projects in the Last Two Reporting Periods

The following tables provide the results for each performance measure for each of the 58 Senior Medicare Patrol Projects. Each table
provides the performance measure results for the two 6-month reporting periods.

One project, North Carolina – Division of Aging, ceased operating at the end of 2003. Therefore, data are not reported for this project
for January through June 2004.

Please note that performance measure 9, “Estimated number of people reached by media events,” is calculated by adding the average
number of viewers reached each time an advertisement is aired and the number of readers reached for each individual printed
advertisement.




                                                                                                                                     26
 A P P E N D           I X ~ D


           Alabama - Alabama Commission on Aging, Montgomery                                 In operation since: July 1999
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                 18                 42                   24
     2    Number of new volunteers trained                                             111                218                  107
     3    Number of media events conducted                                           2,642                 95               -2,547
     4    Number of community education events conducted                               105                198                   93
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           88                 46                 -42
     6    Number of group sessions for beneficiaries led by volunteers                 220                309                  89
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                11,719              13,505              1,786
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                             2,978               5,828              2,850
  7+8     Total number of beneficiaries educated                                    14,697              19,333              4,636
     9    Estimated number of people reached by media events                       175,227            402,426             227,199
    10    Estimated number of people reached by community education
          events                                                                    30,634              72,503             41,869
    11    Number of complaints received attributable to the project                    255                 365                110
    12    Number of complaints referred for follow-up                                   38                  83                 45
    13    Number of complaints that resulted in some action                              8                  15                  7
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0            $10,465             $10,465
   15C    Other savings attributable to the project                                     $0                 $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0            $10,465             $10,465
14 + 15   Total savings attributable to the project                                     $0            $10,465             $10,465




                                                                                                                                     27
           A P P E N D          I X ~ D


          Alaska - Alaska State Division of Senior Services, Anchorage                           In operation since: July 1999
                                                                                                                        Change in Last 6
                        PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04           Months
                           OUTPUT MEASURES
     1     Number of training sessions conducted to train new volunteers                     0                  13                    13
     2     Number of new volunteers trained                                                  0                   2                     2
     3     Number of media events conducted                                                  4                   7                     3
     4     Number of community education events conducted                                    7                  13                     6
                            OUTCOME MEASURES
     5     Number of volunteers who, for the first time, conducted
           activities to educate beneficiaries                                            0                         2                  2
     6     Number of group sessions for beneficiaries led by volunteers                  20                         0                -20
     7     Number of beneficiaries who attended group sessions led by
           volunteers                                                                 1,000                         0              -1,000
     8     Number of one-on-one sessions held between beneficiaries
           and volunteers                                                                35                         1                 -34
  7+8      Total number of beneficiaries educated                                     1,035                         1              -1,034
     9     Estimated number of people reached by media events                         3,500               500,000                496,500
    10     Estimated number of people reached by community education
           events                                                                     3,744                   130                  -3,614
    11     Number of complaints received attributable to the project                      0                     1                       1
    12     Number of complaints referred for follow-up                                    0                     1                       1
    13     Number of complaints that resulted in some action                              0                     0                       0
    14     Medicare funds recovered attributable to the project                          $0                    $0                      $0
   15A     Medicaid funds recovered attributable to the project                          $0                    $0                      $0
   15B     Savings to beneficiaries attributable to the project                          $0                     $0                    $0
   15C     Other savings attributable to the project                                     $0                     $0                    $0
TOTAL
     15    Total Medicaid funds, beneficiary savings and other savings                   $0                     $0                    $0
14 + 15    Total savings attributable to the project                                     $0                     $0                    $0




                                                                                                                                            28
 A P P E N D            I X ~ D


          Arizona - Arizona Department of Economic Security, Phoenix                          In operation since: July 1999
                                                                                                                  Change in Last 6
                        PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                           OUTPUT MEASURES
     1     Number of training sessions conducted to train new volunteers                 13                 19                   6
     2     Number of new volunteers trained                                              15                 39                  24
     3     Number of media events conducted                                              38                 24                 -14
     4     Number of community education events conducted                               103                144                  41
                            OUTCOME MEASURES
     5     Number of volunteers who, for the first time, conducted
           activities to educate beneficiaries                                           15                  39                 24
     6     Number of group sessions for beneficiaries led by volunteers                  96                   7                -89
     7     Number of beneficiaries who attended group sessions led by
           volunteers                                                                 4,056               4,056                  0
     8     Number of one-on-one sessions held between beneficiaries
           and volunteers                                                                23                  23                  0
  7+8      Total number of beneficiaries educated                                     4,079               4,079                  0
     9     Estimated number of people reached by media events                        79,995              47,768            -32,227
    10     Estimated number of people reached by community education
           events                                                                    40,008               9,671            -30,337
    11     Number of complaints received attributable to the project                     78                  78                  0
    12     Number of complaints referred for follow-up                                    4                   7                  3
    13     Number of complaints that resulted in some action                              0                   0                  0
    14     Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A     Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B     Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C     Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15    Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15    Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                     29
 A P P E N D           I X ~ D

 Arkansas - Arkansas Division of Aging and Adult Services, Little Rock                          In operation since: July 2002
                                                                                                                    Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  5                      4                 -1
     2    Number of new volunteers trained                                              24                     14                -10
     3    Number of media events conducted                                              10                     17                  7
     4    Number of community education events conducted                                10                     30                 20
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                               6                  10                  4
     6    Number of group sessions for beneficiaries led by volunteers                      8                  44                 36
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                   434                  1,668              1,234
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                 6                      3                 -3
  7+8     Total number of beneficiaries educated                                       440                  1,671              1,231
     9    Estimated number of people reached by media events                       220,500               737,428             516,928
    10    Estimated number of people reached by community education
          events                                                                     1,902                  2,425                523
    11    Number of complaints received attributable to the project                      9                     39                 30
    12    Number of complaints referred for follow-up                                    5                      9                  4
    13    Number of complaints that resulted in some action                              0                      0                  0
    14    Medicare funds recovered attributable to the project                          $0                     $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                     $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $782                $782
   15C    Other savings attributable to the project                                     $0                    $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $782                $782
14 + 15   Total savings attributable to the project                                     $0                  $782                $782




                                                                                                                                       30
 A P P E N D           I X ~ D


California - California Health Insurance Counseling Advocacy Programs
                                                                                             In operation since: July 1997
                         Association, Sacramento
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  6                  6                   0
     2    Number of new volunteers trained                                              73                187                 114
     3    Number of media events conducted                                               8                 26                  18
     4    Number of community education events conducted                                36                 52                  16
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           52                 16                 -36
     6    Number of group sessions for beneficiaries led by volunteers                 244                207                 -37
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 8,890               7,977               -913
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                 8                  18                 10
  7+8     Total number of beneficiaries educated                                     8,898               7,995               -903
     9    Estimated number of people reached by media events                     2,483,950           6,011,000          3,527,050
    10    Estimated number of people reached by community education
          events                                                                     5,436              23,768             18,332
    11    Number of complaints received attributable to the project                     27                  21                 -6
    12    Number of complaints referred for follow-up                                    8                  18                 10
    13    Number of complaints that resulted in some action                              4                   2                 -2
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                    31
A P P E N D         I X ~ D


               Colorado - Colorado Division of Insurance, Denver                              In operation since: July 1999
                                                                                                                  Change in Last 6
                        PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                           OUTPUT MEASURES
      1    Number of training sessions conducted to train new volunteers                  2                   1                 -1
      2    Number of new volunteers trained                                              20                   5                -15
      3    Number of media events conducted                                              10                   7                 -3
      4    Number of community education events conducted                                20                  31                 11
                            OUTCOME MEASURES
      5    Number of volunteers who, for the first time, conducted
           activities to educate beneficiaries                                            5                   6                  1
      6    Number of group sessions for beneficiaries led by volunteers                  43                  92                 49
      7    Number of beneficiaries who attended group sessions led by
           volunteers                                                                 1,290               2,232                942
      8    Number of one-on-one sessions held between beneficiaries
           and volunteers                                                                77                  56                -21
   7+8     Total number of beneficiaries educated                                     1,367               2,288                921
      9    Estimated number of people reached by media events                        75,120            149,200              74,080
     10    Estimated number of people reached by community education
           events                                                                     1,305                836                -469
     11    Number of complaints received attributable to the project                     15                  8                  -7
     12    Number of complaints referred for follow-up                                    3                  2                  -1
     13    Number of complaints that resulted in some action                              0                  0                   0
     14    Medicare funds recovered attributable to the project                          $0                 $0                  $0
    15A    Medicaid funds recovered attributable to the project                          $0                 $0                  $0
    15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
    15C    Other savings attributable to the project                                     $0                  $0                 $0
 TOTAL
      15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
 14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                     32
 A P P E N D           I X ~ D


   Connecticut - Connecticut Department of Social Services, Hartford                         In operation since: July 1999
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                 16                 16                   0
     2    Number of new volunteers trained                                             244                226                 -18
     3    Number of media events conducted                                              23                 30                   7
     4    Number of community education events conducted                               112                116                   4
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                          113                  18                -95
     6    Number of group sessions for beneficiaries led by volunteers                  17                  16                 -1
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 1,701                467               -1,234
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                33                 13                  -20
  7+8     Total number of beneficiaries educated                                     1,734                480               -1,254
     9    Estimated number of people reached by media events                       374,015            619,372             245,357
    10    Estimated number of people reached by community education
          events                                                                     7,396              13,287              5,891
    11    Number of complaints received attributable to the project                     12                  43                 31
    12    Number of complaints referred for follow-up                                    4                  23                 19
    13    Number of complaints that resulted in some action                              0                   0                  0
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                     33
 A P P E N D           I X ~ D


   Delaware - Delaware Department of Health and Social Services, New
                                                                                             In operation since: July 1999
                               Castle
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  3                  3                   0
     2    Number of new volunteers trained                                               2                 19                  17
     3    Number of media events conducted                                              18                171                 153
     4    Number of community education events conducted                                38                 17                 -21
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                            2                  12                 10
     6    Number of group sessions for beneficiaries led by volunteers                  73                  57                -16
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 1,608               1,179               -429
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                40                  96                 56
  7+8     Total number of beneficiaries educated                                     1,648               1,275               -373
     9    Estimated number of people reached by media events                     1,030,650         11,000,000           9,969,350
    10    Estimated number of people reached by community education
          events                                                                     4,070               1,829              -2,241
    11    Number of complaints received attributable to the project                     18                   7                 -11
    12    Number of complaints referred for follow-up                                    8                   1                  -7
    13    Number of complaints that resulted in some action                              0                   0                   0
    14    Medicare funds recovered attributable to the project                          $0                  $0                  $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                  $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                     34
 A P P E N D           I X ~ D


      District of Columbia - The AARP Foundation, Washington, DC                                In operation since: July 1999
                                                                                                                       Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                     0                      0                  0
     2    Number of new volunteers trained                                                  0                      0                  0
     3    Number of media events conducted                                                  3                      2                 -1
     4    Number of community education events conducted                                    7                      8                  1
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                            0                      0                     0
     6    Number of group sessions for beneficiaries led by volunteers                  25                     29                     4
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                   675                   756                     81
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                52                     0                    -52
  7+8     Total number of beneficiaries educated                                       727                   756                     29
     9    Estimated number of people reached by media events                       690,000            18,000,000             17,310,000
    10    Estimated number of people reached by community education
          events                                                                     5,650                  6,150                   500
    11    Number of complaints received attributable to the project                     60                     27                   -33
    12    Number of complaints referred for follow-up                                    4                      0                    -4
    13    Number of complaints that resulted in some action                              0                      0                     0
    14    Medicare funds recovered attributable to the project                          $0                     $0                    $0
   15A    Medicaid funds recovered attributable to the project                          $0                     $0                    $0
   15B    Savings to beneficiaries attributable to the project                          $0                     $0                    $0
   15C    Other savings attributable to the project                                     $0                     $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                     $0                    $0
14 + 15   Total savings attributable to the project                                     $0                     $0                    $0




                                                                                                                                          35
 A P P E N D           I X ~ D



          District of Columbia - Friendship House, Washington, DC                            In operation since: July 1999
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  5                   5                   0
     2    Number of new volunteers trained                                               4                   4                   0
     3    Number of media events conducted                                           3,848                   4              -3,844
     4    Number of community education events conducted                                30                  20                 -10
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                            4                   2                  -2
     6    Number of group sessions for beneficiaries led by volunteers                  16                  16                   0
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                   480                441                 -39
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                             1,163                 707               -456
  7+8     Total number of beneficiaries educated                                     1,643               1,148               -495
     9    Estimated number of people reached by media events                     2,497,070           1,248,535          -1,248,535
    10    Estimated number of people reached by community education
          events                                                                   150,000              85,000            -65,000
    11    Number of complaints received attributable to the project                     50                  25                -25
    12    Number of complaints referred for follow-up                                    0                   0                  0
    13    Number of complaints that resulted in some action                              0                   0                  0
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                     36
 A P P E N D           I X ~ D

      Florida - Tampa Bay Regional Planning Council, St. Petersburg                          In operation since: July 1999
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  7                   2                 -5
     2    Number of new volunteers trained                                              56                  34                -22
     3    Number of media events conducted                                              28                  40                 12
     4    Number of community education events conducted                                58                  64                  6
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           10                   7                 -3
     6    Number of group sessions for beneficiaries led by volunteers                  29                  14                -15
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                   724                885                 161
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                99                 49                 -50
  7+8     Total number of beneficiaries educated                                       823                934                 111
     9    Estimated number of people reached by media events                     3,000,860           3,066,896             66,036
    10    Estimated number of people reached by community education
          events                                                                     8,157               5,435              -2,722
    11    Number of complaints received attributable to the project                     95                  75                 -20
    12    Number of complaints referred for follow-up                                    3                   3                   0
    13    Number of complaints that resulted in some action                              0                   0                   0
    14    Medicare funds recovered attributable to the project                          $0                  $0                  $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                  $0
   15B    Savings to beneficiaries attributable to the project                     $19,345                  $0           -$19,345
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings              $19,345                  $0           -$19,345
14 + 15   Total savings attributable to the project                                $19,345                  $0           -$19,345




                                                                                                                                     37
 A P P E N D           I X ~ D


                Georgia - Atlanta Regional Commission, Atlanta                               In operation since: July 1999
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  3                   2                 -1
     2    Number of new volunteers trained                                               2                   5                  3
     3    Number of media events conducted                                              21                  25                  4
     4    Number of community education events conducted                                10                  41                 31
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                            2                  3                   1
     6    Number of group sessions for beneficiaries led by volunteers                  61                109                  48
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 1,833               2,771                938
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                               205                 226                 21
  7+8     Total number of beneficiaries educated                                     2,038               2,997                959
     9    Estimated number of people reached by media events                        73,859            279,850             205,991
    10    Estimated number of people reached by community education
          events                                                                       835               3,430              2,595
    11    Number of complaints received attributable to the project                      7                  11                  4
    12    Number of complaints referred for follow-up                                    2                   9                  7
    13    Number of complaints that resulted in some action                              0                   0                  0
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                    38
 A P P E N D           I X ~ D


              Georgia - Department of Human Resources, Atlanta                               In operation since: July 1999
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                 25                   4                -21
     2    Number of new volunteers trained                                              84                  36                -48
     3    Number of media events conducted                                              35                   7                -28
     4    Number of community education events conducted                               133                  55                -78
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           20                   8                -12
     6    Number of group sessions for beneficiaries led by volunteers                 247                  15               -232
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 5,998                410               -5,588
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                94                  3                  -91
  7+8     Total number of beneficiaries educated                                     6,092                413               -5,679
     9    Estimated number of people reached by media events                       412,100            391,725             -20,375
    10    Estimated number of people reached by community education
          events                                                                    45,946               4,773            -41,173
    11    Number of complaints received attributable to the project                      6                   7                  1
    12    Number of complaints referred for follow-up                                    1                   4                  3
    13    Number of complaints that resulted in some action                              2                   3                  1
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                     39
 A P P E N D           I X ~ D


              Hawaii - Hawaii Executive Office of Aging, Honolulu                            In operation since: July 1997
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  4                   8                  4
     2    Number of new volunteers trained                                               6                  59                 53
     3    Number of media events conducted                                             107                   2               -105
     4    Number of community education events conducted                                 6                   9                  3
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                            3                   5                  2
     6    Number of group sessions for beneficiaries led by volunteers                  20                  45                 25
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                   645               1,683              1,038
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                 0                   2                  2
  7+8     Total number of beneficiaries educated                                       645               1,685              1,040
     9    Estimated number of people reached by media events                       940,000            500,000            -440,000
    10    Estimated number of people reached by community education
          events                                                                    27,000               4,200            -22,800
    11    Number of complaints received attributable to the project                      3                  25                 22
    12    Number of complaints referred for follow-up                                    0                   0                  0
    13    Number of complaints that resulted in some action                              1                   0                 -1
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                         $73                  $0               -$73
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                  $73                  $0               -$73
14 + 15   Total savings attributable to the project                                    $73                  $0               -$73




                                                                                                                                    40
 A P P E N D           I X ~ D



               Idaho - Idaho Medicare Watch Partnership, Boise                               In operation since: July 1999
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                 14                  13                 -1
     2    Number of new volunteers trained                                               9                  19                 10
     3    Number of media events conducted                                              43                  29                -14
     4    Number of community education events conducted                                40                  85                 45
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                            9                 11                   2
     6    Number of group sessions for beneficiaries led by volunteers                 180                149                 -31
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                12,492               1,210            -11,282
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                               642                 647                  5
  7+8     Total number of beneficiaries educated                                    13,134               1,857            -11,277
     9    Estimated number of people reached by media events                       323,388            395,970              72,582
    10    Estimated number of people reached by community education
          events                                                                     7,860               9,649               1,789
    11    Number of complaints received attributable to the project                  2,236                 649              -1,587
    12    Number of complaints referred for follow-up                                  670                   2                -668
    13    Number of complaints that resulted in some action                            480                   0                -480
    14    Medicare funds recovered attributable to the project                          $0                  $0                  $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                  $0
   15B    Savings to beneficiaries attributable to the project                     $91,232            $71,491            -$19,741
   15C    Other savings attributable to the project                                     $0                 $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings              $91,232            $71,491            -$19,741
14 + 15   Total savings attributable to the project                                $91,232            $71,491            -$19,741




                                                                                                                                     41
A P P E N D         I X ~ D

             Illinois - Suburban Area Agency on Aging, Oak Park                              In operation since: July 1997
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  6                  12                   6
     2    Number of new volunteers trained                                              29                   6                 -23
     3    Number of media events conducted                                           2,446               1,219              -1,227
     4    Number of community education events conducted                                47                 276                 229
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           12                 86                  74
     6    Number of group sessions for beneficiaries led by volunteers                 119                214                  95
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 2,698              12,562              9,864
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                13                 100                 87
  7+8     Total number of beneficiaries educated                                     2,711              12,662              9,951
     9    Estimated number of people reached by media events                       508,800            763,736             254,936
    10    Estimated number of people reached by community education
          events                                                                     4,582              19,462             14,880
    11    Number of complaints received attributable to the project                      6                  19                 13
    12    Number of complaints referred for follow-up                                    4                  17                 13
    13    Number of complaints that resulted in some action                              0                   3                  3
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                     42
 A P P E N D           I X ~ D



     Indiana - Indiana Division of Disability, Aging and Rehabilitation,
                                                                                                In operation since: July 1999
                                Indianapolis
                                                                                                                    Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  6                     7                   1
     2    Number of new volunteers trained                                              87                   131                  44
     3    Number of media events conducted                                               6                   143                 137
     4    Number of community education events conducted                                90                    87                  -3
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                               6                   7                  1
     6    Number of group sessions for beneficiaries led by volunteers                      7                  88                 81
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                    87                  2,178              2,091
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                28                    123                 95
  7+8     Total number of beneficiaries educated                                       115                  2,301              2,186
     9    Estimated number of people reached by media events                        28,438              1,428,266          1,399,828
    10    Estimated number of people reached by community education
          events                                                                    17,262                  9,470              -7,792
    11    Number of complaints received attributable to the project                      0                      4                   4
    12    Number of complaints referred for follow-up                                    0                      0                   0
    13    Number of complaints that resulted in some action                              0                      0                   0
    14    Medicare funds recovered attributable to the project                          $0                     $0                  $0
   15A    Medicaid funds recovered attributable to the project                          $0                     $0                  $0
   15B    Savings to beneficiaries attributable to the project                          $0                     $0                 $0
   15C    Other savings attributable to the project                                     $0                     $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                     $0                 $0
14 + 15   Total savings attributable to the project                                     $0                     $0                 $0



                                                                                                                                        43
 A P P E N D           I X ~ D


               Iowa - Iowa Department of Elder Affairs, Waterloo                             In operation since: July 1997
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                 42                   6                -36
     2    Number of new volunteers trained                                              54                   6                -48
     3    Number of media events conducted                                             198               2,064              1,866
     4    Number of community education events conducted                                94                 112                 18
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           41                  6                 -35
     6    Number of group sessions for beneficiaries led by volunteers                 457                325                -132
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                   982               6,272              5,290
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                27                  31                  4
  7+8     Total number of beneficiaries educated                                     1,009               6,303              5,294
     9    Estimated number of people reached by media events                       312,191       1,383,664,631      1,383,352,440
    10    Estimated number of people reached by community education
          events                                                                   109,517               3,767           -105,750
    11    Number of complaints received attributable to the project                     52                  44                 -8
    12    Number of complaints referred for follow-up                                   11                  20                  9
    13    Number of complaints that resulted in some action                              2                   4                  2
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                        $210                  $0              -$210
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                 $210                  $0              -$210
14 + 15   Total savings attributable to the project                                   $210                  $0              -$210




                                                                                                                                    44
 A P P E N D           I X ~ D


                  Kansas - Via Christi Foundation, Inc., Wichita                                In operation since: July 2003
                                                                                                                       Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                     0                   2                     2
     2    Number of new volunteers trained                                                  0                  58                    58
     3    Number of media events conducted                                                  0                   4                     4
     4    Number of community education events conducted                                    0                   2                     2
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                               0                      6                  6
     6    Number of group sessions for beneficiaries led by volunteers                      0                      6                  6
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                        0                  75                    75
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                    0                  24                    24
  7+8     Total number of beneficiaries educated                                            0                  99                    99
     9    Estimated number of people reached by media events                                0               8,000                 8,000
    10    Estimated number of people reached by community education
          events                                                                         0                  1,000                 1,000
    11    Number of complaints received attributable to the project                      0                      2                     2
    12    Number of complaints referred for follow-up                                    0                      2                     2
    13    Number of complaints that resulted in some action                              0                      0                     0
    14    Medicare funds recovered attributable to the project                          $0                     $0                    $0
   15A    Medicaid funds recovered attributable to the project                          $0                     $0                    $0
   15B    Savings to beneficiaries attributable to the project                          $0                     $0                    $0
   15C    Other savings attributable to the project                                     $0                     $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                     $0                    $0
14 + 15   Total savings attributable to the project                                     $0                     $0                    $0




                                                                                                                                          45
 A P P E N D           I X ~ D


  Kentucky - Kentucky Association of Senior Service Corps Programs,
                                                                                             In operation since: July 2001
                             Louisville
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  5                 14                   9
     2    Number of new volunteers trained                                              18                 45                  27
     3    Number of media events conducted                                              92                252                 160
     4    Number of community education events conducted                                34                 75                  41
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                            9                 29                  20
     6    Number of group sessions for beneficiaries led by volunteers                 150                292                 142
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 3,927               8,828              4,901
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                             1,008               1,853                845
  7+8     Total number of beneficiaries educated                                     4,935              10,681              5,746
     9    Estimated number of people reached by media events                     1,083,054           4,734,027          3,650,973
    10    Estimated number of people reached by community education
          events                                                                     2,727               5,291              2,564
    11    Number of complaints received attributable to the project                    163                 154                 -9
    12    Number of complaints referred for follow-up                                    0                   6                  6
    13    Number of complaints that resulted in some action                              0                   3                  3
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                      $1,815                  $0            -$1,815
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings               $1,815                  $0            -$1,815
14 + 15   Total savings attributable to the project                                 $1,815                  $0            -$1,815



                                                                                                                                    46
    A P P E N D            I X ~ D


          Louisiana - Vernon Parish Council on Aging, Inc., Leesville                           In operation since: July 2000
                                                                                                                       Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  2                      2                     0
     2    Number of new volunteers trained                                              46                     98                    52
     3    Number of media events conducted                                               9                      4                    -5
     4    Number of community education events conducted                                12                     12                     0
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                               3                      2                 -1
     6    Number of group sessions for beneficiaries led by volunteers                      2                      5                  3
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                    31                     47                    16
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                27                     89                    62
  7+8     Total number of beneficiaries educated                                        58                     58                     0
     9    Estimated number of people reached by media events                       250,000               100,000               -150,000
    10    Estimated number of people reached by community education
          events                                                                       286                   244                    -42
    11    Number of complaints received attributable to the project                     10                     5                     -5
    12    Number of complaints referred for follow-up                                    3                     2                     -1
    13    Number of complaints that resulted in some action                              1                     1                      0
    14    Medicare funds recovered attributable to the project                     $83,787                    $0               -$83,787
   15A    Medicaid funds recovered attributable to the project                          $0                    $0                     $0
   15B    Savings to beneficiaries attributable to the project                          $0                     $0                    $0
   15C    Other savings attributable to the project                                     $0                     $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                     $0                    $0
14 + 15   Total savings attributable to the project                                $83,787                     $0              -$83,787




                                                                                                                                          47
  A P P E N D            I X ~ D


Maine - Maine Department of Human Services' Bureau of Elder and Adult
                                                                                             In operation since: July 1999
                         Services, Augusta
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                 16                  19                  3
     2    Number of new volunteers trained                                              91                  25                -66
     3    Number of media events conducted                                              51                  65                 14
     4    Number of community education events conducted                                67                  59                 -8
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           55                 13                 -42
     6    Number of group sessions for beneficiaries led by volunteers                  70                155                  85
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 1,174               2,666              1,492
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                               118                 346                228
  7+8     Total number of beneficiaries educated                                     1,292               3,012              1,720
     9    Estimated number of people reached by media events                       748,874           1,205,839            456,965
    10    Estimated number of people reached by community education
          events                                                                    11,903               5,397              -6,506
    11    Number of complaints received attributable to the project                     11                  15                   4
    12    Number of complaints referred for follow-up                                    4                   7                   3
    13    Number of complaints that resulted in some action                              2                   4                   2
    14    Medicare funds recovered attributable to the project                          $0                  $0                  $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                  $0
   15B    Savings to beneficiaries attributable to the project                          $0              $3,128             $3,128
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0              $3,128             $3,128
14 + 15   Total savings attributable to the project                                     $0              $3,128             $3,128




                                                                                                                                     48
  A P P E N D            I X ~ D


                Maryland - Maryland Office on Aging, Baltimore                               In operation since: July 1997
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                 25                  18                 -7
     2    Number of new volunteers trained                                               0                   4                  4
     3    Number of media events conducted                                              69                  56                -13
     4    Number of community education events conducted                                51                  53                  2
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                            0                  0                   0
     6    Number of group sessions for beneficiaries led by volunteers                 119                205                  86
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 3,816               6,922              3,106
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                             1,483               1,648                165
  7+8     Total number of beneficiaries educated                                     5,299               8,570              3,271
     9    Estimated number of people reached by media events                       350,845            446,952              96,107
    10    Estimated number of people reached by community education
          events                                                                    18,091               8,804              -9,287
    11    Number of complaints received attributable to the project                     67                  21                 -46
    12    Number of complaints referred for follow-up                                    2                   0                  -2
    13    Number of complaints that resulted in some action                              0                   0                   0
    14    Medicare funds recovered attributable to the project                          $0                  $0                  $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                  $0
   15B    Savings to beneficiaries attributable to the project                          $0               $840                $840
   15C    Other savings attributable to the project                                     $0                 $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0               $840                $840
14 + 15   Total savings attributable to the project                                     $0               $840                $840




                                                                                                                                     49
 A P P E N D           I X ~ D


           Massachusetts - Elder Services of Merrimack, Lawrence                                In operation since: July 1999
                                                                                                                       Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  8                     8                      0
     2    Number of new volunteers trained                                              73                    40                    -33
     3    Number of media events conducted                                              28                    58                     30
     4    Number of community education events conducted                               201                   250                     49
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           17                     17                     0
     6    Number of group sessions for beneficiaries led by volunteers                 238                      0                  -238
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                        0                      0                  0
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                            14,320                  6,320                 -8,000
  7+8     Total number of beneficiaries educated                                    14,320                  6,320                 -8,000
     9    Estimated number of people reached by media events                       140,000               300,000                160,000
    10    Estimated number of people reached by community education
          events                                                                     7,676                 20,000                12,324
    11    Number of complaints received attributable to the project                     31                      5                   -26
    12    Number of complaints referred for follow-up                                    3                      0                    -3
    13    Number of complaints that resulted in some action                              0                      0                     0
    14    Medicare funds recovered attributable to the project                          $0                     $0                    $0
   15A    Medicaid funds recovered attributable to the project                          $0                     $0                    $0
   15B    Savings to beneficiaries attributable to the project                          $0                     $0                    $0
   15C    Other savings attributable to the project                                     $0                     $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                     $0                    $0
14 + 15   Total savings attributable to the project                                     $0                     $0                    $0




                                                                                                                                           50
 A P P E N D           I X ~ D



  Michigan - Area Agencies on Aging Association of Michigan, Lansing                            In operation since: July 1999
                                                                                                                    Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                 13                      2                -11
     2    Number of new volunteers trained                                             186                     13               -173
     3    Number of media events conducted                                               0                     10                 10
     4    Number of community education events conducted                                13                     50                 37
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           13                     15                  2
     6    Number of group sessions for beneficiaries led by volunteers                   0                     44                 44
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                        0               1,829              1,829
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                11                     11                  0
  7+8     Total number of beneficiaries educated                                        11                  1,840              1,829
     9    Estimated number of people reached by media events                                0           1,070,771          1,070,771
    10    Estimated number of people reached by community education
          events                                                                     2,853                   475               -2,378
    11    Number of complaints received attributable to the project                     11                    11                    0
    12    Number of complaints referred for follow-up                                    5                     2                   -3
    13    Number of complaints that resulted in some action                              0                     1                    1
    14    Medicare funds recovered attributable to the project                          $0                    $0                   $0
   15A    Medicaid funds recovered attributable to the project                          $0                    $0                   $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $299                $299
   15C    Other savings attributable to the project                                     $0                    $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $299                $299
14 + 15   Total savings attributable to the project                                     $0                  $299                $299




                                                                                                                                        51
 A P P E N D           I X ~ D


                Minnesota - Minnesota Board of Aging, St. Paul                                  In operation since: July 1997
                                                                                                                    Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  5                     4                  -1
     2    Number of new volunteers trained                                              26                    65                  39
     3    Number of media events conducted                                               0                    10                  10
     4    Number of community education events conducted                                83                   212                 129
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           19                      3                -16
     6    Number of group sessions for beneficiaries led by volunteers                  19                     34                 15
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                   888                     61               -827
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                 9                      7                 -2
  7+8     Total number of beneficiaries educated                                       897                     68               -829
     9    Estimated number of people reached by media events                                0            979,687             979,687
    10    Estimated number of people reached by community education
          events                                                                     2,098                 11,965              9,867
    11    Number of complaints received attributable to the project                      0                     14                 14
    12    Number of complaints referred for follow-up                                    0                     11                 11
    13    Number of complaints that resulted in some action                              0                      9                  9
    14    Medicare funds recovered attributable to the project                          $0                     $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                     $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0               $31,452             $31,452
   15C    Other savings attributable to the project                                     $0               $27,642             $27,642
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0               $59,094             $59,094
14 + 15   Total savings attributable to the project                                     $0               $59,094             $59,094




                                                                                                                                       52
 A P P E N D           I X ~ D


    Mississippi - Mississippi Department of Human Services, Jackson                          In operation since: July 2000
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                 19                  33                 14
     2    Number of new volunteers trained                                             212                 262                 50
     3    Number of media events conducted                                              10               1,910              1,900
     4    Number of community education events conducted                                98                 170                 72
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           46                 63                  17
     6    Number of group sessions for beneficiaries led by volunteers                 113                445                 332
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 1,841               7,772              5,931
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                             1,029               1,882                853
  7+8     Total number of beneficiaries educated                                     2,870               9,654              6,784
     9    Estimated number of people reached by media events                        16,694            953,075             936,381
    10    Estimated number of people reached by community education
          events                                                                    10,047              25,724             15,677
    11    Number of complaints received attributable to the project                     26                  85                 59
    12    Number of complaints referred for follow-up                                    8                   0                 -8
    13    Number of complaints that resulted in some action                             10                   0                -10
    14    Medicare funds recovered attributable to the project                       $490                   $0              -$490
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                      $2,436                  $0            -$2,436
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings               $2,436                  $0            -$2,436
14 + 15   Total savings attributable to the project                                 $2,926                  $0            -$2,926




                                                                                                                                    53
 A P P E N D           I X ~ D



          Missouri - District III Area Agency on Aging, Warrensburg                          In operation since: July 1997
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  1                   8                  7
     2    Number of new volunteers trained                                              10                  90                 80
     3    Number of media events conducted                                               3                   9                  6
     4    Number of community education events conducted                                15                   8                 -7
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           10                  90                 80
     6    Number of group sessions for beneficiaries led by volunteers                  15                  38                 23
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                   287               1,164                877
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                58                  81                 23
  7+8     Total number of beneficiaries educated                                       345               1,245                900
     9    Estimated number of people reached by media events                       100,000            271,500             171,500
    10    Estimated number of people reached by community education
          events                                                                       287               1,000                713
    11    Number of complaints received attributable to the project                      5                   5                  0
    12    Number of complaints referred for follow-up                                    5                   5                  0
    13    Number of complaints that resulted in some action                              1                   0                 -1
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0               $887                $887
   15C    Other savings attributable to the project                                     $0                 $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0               $887                $887
14 + 15   Total savings attributable to the project                                     $0               $887                $887




                                                                                                                                    54
 A P P E N D           I X ~ D

                  Montana - Missoula Aging Services, Missoula                                In operation since: July 1999
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  7                   4                 -3
     2    Number of new volunteers trained                                              35                   8                -27
     3    Number of media events conducted                                             173               6,301              6,128
     4    Number of community education events conducted                                40                  66                 26
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           29                 24                  -5
     6    Number of group sessions for beneficiaries led by volunteers                 112                139                  27
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 2,769               3,904              1,135
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                               182                 769                587
  7+8     Total number of beneficiaries educated                                     2,951               4,673              1,722
     9    Estimated number of people reached by media events                       550,408            917,621             367,213
    10    Estimated number of people reached by community education
          events                                                                     4,532               6,903              2,371
    11    Number of complaints received attributable to the project                     41                 110                 69
    12    Number of complaints referred for follow-up                                    0                  14                 14
    13    Number of complaints that resulted in some action                              0                   0                  0
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                    55
 A P P E N D           I X ~ D



Nebraska - Nebraska Department of Health and Human Services, Lincoln                         In operation since: July 2000
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  4                   3                 -1
     2    Number of new volunteers trained                                              26                  11                -15
     3    Number of media events conducted                                              26                  81                 55
     4    Number of community education events conducted                                43                  62                 19
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           33                  34                  1
     6    Number of group sessions for beneficiaries led by volunteers                  55                  67                 12
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 1,759               1,938                179
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                               409                 234               -175
  7+8     Total number of beneficiaries educated                                     2,168               2,172                  4
     9    Estimated number of people reached by media events                       948,403           2,849,444          1,901,041
    10    Estimated number of people reached by community education
          events                                                                   164,706              23,466           -141,240
    11    Number of complaints received attributable to the project                     31                  11                -20
    12    Number of complaints referred for follow-up                                   11                   4                 -7
    13    Number of complaints that resulted in some action                              3                   4                  1
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                    56
 A P P E N D           I X ~ D


           Nevada - Nevada Division of Aging Services, Las Vegas                             In operation since: July 1999
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  4                   4                   0
     2    Number of new volunteers trained                                               5                   1                  -4
     3    Number of media events conducted                                           4,150                  12              -4,138
     4    Number of community education events conducted                                12                  20                   8
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                            3                   0                  -3
     6    Number of group sessions for beneficiaries led by volunteers                  12                  14                   2
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                   924               1,050                126
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                12                  12                  0
  7+8     Total number of beneficiaries educated                                       936               1,062                126
     9    Estimated number of people reached by media events                       935,500            135,000            -800,500
    10    Estimated number of people reached by community education
          events                                                                     9,150              10,455              1,305
    11    Number of complaints received attributable to the project                     25                  55                 30
    12    Number of complaints referred for follow-up                                   11                  11                  0
    13    Number of complaints that resulted in some action                              0                   0                  0
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                     57
 A P P E N D           I X ~ D



New Hampshire - New Hampshire Division of Elderly and Adult Services,
                                                                                             In operation since: July 1997
                            Concord
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  1                   1                  0
     2    Number of new volunteers trained                                               9                  36                 27
     3    Number of media events conducted                                              18                  16                 -2
     4    Number of community education events conducted                                45                  52                  7
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                            9                   5                 -4
     6    Number of group sessions for beneficiaries led by volunteers                  46                  48                  2
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 1,125               1,174                 49
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                             3,659               2,813               -846
  7+8     Total number of beneficiaries educated                                     4,784               3,987               -797
     9    Estimated number of people reached by media events                       142,800            300,000             157,200
    10    Estimated number of people reached by community education
          events                                                                    10,800              10,800                  0
    11    Number of complaints received attributable to the project                      7                  25                 18
    12    Number of complaints referred for follow-up                                    0                   0                  0
    13    Number of complaints that resulted in some action                              0                   0                  0
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                    58
 A P P E N D           I X ~ D



New Jersey - Jewish Family & Vocational Services of Middlesex County,
                                                                                             In operation since: July 2001
                            Inc., Edison
                                                                                                                    Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  3                   1                     -2
     2    Number of new volunteers trained                                              38                  35                     -3
     3    Number of media events conducted                                               5                   0                     -5
     4    Number of community education events conducted                                 9                  10                      1
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           12                   3                     -9
     6    Number of group sessions for beneficiaries led by volunteers                  68                  64                     -4
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 3,852               4,291                   439
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                               120                 150                    30
  7+8     Total number of beneficiaries educated                                     3,972               4,441                   469
     9    Estimated number of people reached by media events                     1,201,647                      0          -1,201,647
    10    Estimated number of people reached by community education
          events                                                                     5,403               5,750                   347
    11    Number of complaints received attributable to the project                     30                  19                   -11
    12    Number of complaints referred for follow-up                                    0                   0                     0
    13    Number of complaints that resulted in some action                              0                   0                     0
    14    Medicare funds recovered attributable to the project                          $0                  $0                    $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                    $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                    $0
   15C    Other savings attributable to the project                                     $0                  $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                    $0
14 + 15   Total savings attributable to the project                                     $0                  $0                    $0




                                                                                                                                        59
 A P P E N D           I X ~ D



          New Mexico - New Mexico State Agency on Aging, Santa Fe                            In operation since: July 1999
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  5                  14                  9
     2    Number of new volunteers trained                                               8                  15                  7
     3    Number of media events conducted                                               5                   9                  4
     4    Number of community education events conducted                                15                  56                 41
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                            8                  15                  7
     6    Number of group sessions for beneficiaries led by volunteers                  23                  38                 15
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                   999               1,140                141
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                            15,311              14,974               -337
  7+8     Total number of beneficiaries educated                                    16,310              16,114               -196
     9    Estimated number of people reached by media events                       348,000            325,000             -23,000
    10    Estimated number of people reached by community education
          events                                                                    11,825             18,715               6,890
    11    Number of complaints received attributable to the project                     26                 42                  16
    12    Number of complaints referred for follow-up                                   26                 30                   4
    13    Number of complaints that resulted in some action                             14                 39                  25
    14    Medicare funds recovered attributable to the project                          $0                 $0                  $0
   15A    Medicaid funds recovered attributable to the project                          $0           $200,000            $200,000
   15B    Savings to beneficiaries attributable to the project                   $143,020             $85,414            -$57,606
   15C    Other savings attributable to the project                                    $0                  $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings            $143,020            $285,414            $142,394
14 + 15   Total savings attributable to the project                              $143,020            $285,414            $142,394




                                                                                                                                    60
 A P P E N D           I X ~ D



           New York – New York State Office for the Aging, Albany                            In operation since: July 1997
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                 27                 56                  29
     2    Number of new volunteers trained                                              61                264                 203
     3    Number of media events conducted                                               9                 63                  54
     4    Number of community education events conducted                                15                115                 100
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                          341                420                  79
     6    Number of group sessions for beneficiaries led by volunteers                  45                145                 100
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 1,020               3,393              2,373
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                             4,135               5,593              1,458
  7+8     Total number of beneficiaries educated                                     5,155               8,986              3,831
     9    Estimated number of people reached by media events                        48,737            452,700             403,963
    10    Estimated number of people reached by community education
          events                                                                    57,945             15,501             -42,444
    11    Number of complaints received attributable to the project                    839                218                -621
    12    Number of complaints referred for follow-up                                  271                 36                -235
    13    Number of complaints that resulted in some action                             71                 34                 -37
    14    Medicare funds recovered attributable to the project                      $1,696            $22,005             $20,309
   15A    Medicaid funds recovered attributable to the project                          $0                 $0                  $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                 $0                  $0
14 + 15   Total savings attributable to the project                                 $1,696            $22,005             $20,309




                                                                                                                                    61
 A P P E N D           I X ~ D



 North Carolina - Department of Health and Human Services, Division of                       In operation: July 2000 through
                            Aging, Raleigh                                                                     Dec. 2003
                                                                                                                Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04       Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  0                 NA                NA
     2    Number of new volunteers trained                                               2                 NA                NA
     3    Number of media events conducted                                               6                 NA                NA
     4    Number of community education events conducted                                13                 NA                NA
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                            2                 NA                NA
     6    Number of group sessions for beneficiaries led by volunteers                  19                 NA                NA
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 1,115                 NA                NA
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                 5                 NA                NA
  7+8     Total number of beneficiaries educated                                     1,120                 NA                NA
     9    Estimated number of people reached by media events                         1,180                 NA                NA
    10    Estimated number of people reached by community education
          events                                                                       325                 NA                NA
    11    Number of complaints received attributable to the project                      0                 NA                NA
    12    Number of complaints referred for follow-up                                    0                 NA                NA
    13    Number of complaints that resulted in some action                              0                 NA                NA
    14    Medicare funds recovered attributable to the project                          $0                 NA                NA
   15A    Medicaid funds recovered attributable to the project                          $0                 NA                NA
   15B    Savings to beneficiaries attributable to the project                          $0                 NA                NA
   15C    Other savings attributable to the project                                     $0                 NA                NA
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                 NA                NA
14 + 15   Total savings attributable to the project                                     $0                 NA                NA



                                                                                                                                   62
 A P P E N D           I X ~ D


               North Carolina - Department of Insurance, Raleigh                                In operation since: July 2003
                                                                                                                    Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                     0                  16                 16
     2    Number of new volunteers trained                                                  0                  75                 75
     3    Number of media events conducted                                                  0                  14                 14
     4    Number of community education events conducted                                    0                  55                 55
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                               0                   4                  4
     6    Number of group sessions for beneficiaries led by volunteers                      0                  15                 15
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                        0                391                 391
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                    0                 17                  17
  7+8     Total number of beneficiaries educated                                            0                408                 408
     9    Estimated number of people reached by media events                                0            231,218             231,218
    10    Estimated number of people reached by community education
          events                                                                         0                 12,496             12,496
    11    Number of complaints received attributable to the project                      1                     72                 71
    12    Number of complaints referred for follow-up                                    1                     10                  9
    13    Number of complaints that resulted in some action                              0                      2                  2
    14    Medicare funds recovered attributable to the project                          $0                     $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                     $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $150                $150
   15C    Other savings attributable to the project                                     $0                    $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $150                $150
14 + 15   Total savings attributable to the project                                     $0                  $150                $150




                                                                                                                                       63
 A P P E N D           I X ~ D


     North Dakota - Legal Assistance of North Dakota, Inc., Bismarck                            In operation since: July 2003
                                                                                                                       Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  5                     10                     5
     2    Number of new volunteers trained                                              45                     57                    12
     3    Number of media events conducted                                               1                     14                    13
     4    Number of community education events conducted                                32                      2                   -30
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                               0                  10                   -10
     6    Number of group sessions for beneficiaries led by volunteers                      0                   0                     0
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                        0                      0                  0
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                    0                  20                    20
  7+8     Total number of beneficiaries educated                                            0                  20                    20
     9    Estimated number of people reached by media events                         7,500               100,000                 92,500
    10    Estimated number of people reached by community education
          events                                                                     1,050                   141                   -909
    11    Number of complaints received attributable to the project                      1                     0                     -1
    12    Number of complaints referred for follow-up                                    1                     0                     -1
    13    Number of complaints that resulted in some action                              0                     0                      0
    14    Medicare funds recovered attributable to the project                          $0                    $0                     $0
   15A    Medicaid funds recovered attributable to the project                          $0                    $0                     $0
   15B    Savings to beneficiaries attributable to the project                          $0                     $0                    $0
   15C    Other savings attributable to the project                                     $0                     $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                     $0                    $0
14 + 15   Total savings attributable to the project                                     $0                     $0                    $0




                                                                                                                                          64
 A P P E N D           I X ~ D


            Ohio - Central Ohio Area Agency on Aging, Columbus                               In operation since: July 2002
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  2                  0                  -2
     2    Number of new volunteers trained                                              25                  0                 -25
     3    Number of media events conducted                                             174                165                  -9
     4    Number of community education events conducted                               201                203                   2
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           15                   9                 -6
     6    Number of group sessions for beneficiaries led by volunteers                  54                  40                -14
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                   738                985                 247
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                               113                 236                123
  7+8     Total number of beneficiaries educated                                       851               1,221                370
     9    Estimated number of people reached by media events                     1,095,460           1,205,879            110,419
    10    Estimated number of people reached by community education
          events                                                                    62,198              64,259              2,061
    11    Number of complaints received attributable to the project                      0                   7                  7
    12    Number of complaints referred for follow-up                                    0                   7                  7
    13    Number of complaints that resulted in some action                              0                   0                  0
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                    65
 A P P E N D           I X ~ D


                         Ohio - Pro Seniors, Inc., Cincinnati                                In operation since: July 2002
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  1                  1                   0
     2    Number of new volunteers trained                                              14                  7                  -7
     3    Number of media events conducted                                              60                627                 567
     4    Number of community education events conducted                                 9                 26                  17
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           16                   7                 -9
     6    Number of group sessions for beneficiaries led by volunteers                  30                  57                 27
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                   716               1,375                659
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                57                  19                -38
  7+8     Total number of beneficiaries educated                                       773               1,394                621
     9    Estimated number of people reached by media events                     1,003,957           3,133,121          2,129,164
    10    Estimated number of people reached by community education
          events                                                                     4,140                703               -3,437
    11    Number of complaints received attributable to the project                     11                  4                   -7
    12    Number of complaints referred for follow-up                                    1                  0                   -1
    13    Number of complaints that resulted in some action                              2                  0                   -2
    14    Medicare funds recovered attributable to the project                       $264                  $0                -$264
   15A    Medicaid funds recovered attributable to the project                          $0                 $0                   $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                   $264                  $0              -$264




                                                                                                                                     66
 A P P E N D           I X ~ D



  Oklahoma - State of Oklahoma Insurance Department, Oklahoma City                              In operation since: July 1999
                                                                                                                    Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  4                    10                   6
     2    Number of new volunteers trained                                              30                   237                 207
     3    Number of media events conducted                                               2                     9                   7
     4    Number of community education events conducted                                 9                    32                  23
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                               2                  11                  9
     6    Number of group sessions for beneficiaries led by volunteers                      2                  11                  9
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                    50                   200                 150
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                 2                    10                   8
  7+8     Total number of beneficiaries educated                                        52                   210                 158
     9    Estimated number of people reached by media events                         4,200               307,005             302,805
    10    Estimated number of people reached by community education
          events                                                                     9,322                  9,317                 -5
    11    Number of complaints received attributable to the project                      6                      5                 -1
    12    Number of complaints referred for follow-up                                    3                      5                  2
    13    Number of complaints that resulted in some action                              2                      0                 -2
    14    Medicare funds recovered attributable to the project                          $0                     $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                     $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                     $0                 $0
   15C    Other savings attributable to the project                                     $0                     $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                     $0                 $0
14 + 15   Total savings attributable to the project                                     $0                     $0                 $0




                                                                                                                                       67
 A P P E N D           I X ~ D


                Oregon – Senior Medicare Patrol Project, Salem                               In operation since: July 1999
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  7                  16                  9
     2    Number of new volunteers trained                                              38                  71                 33
     3    Number of media events conducted                                          17,003                  20            -16,983
     4    Number of community education events conducted                                19                  93                 74
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           38                  71                 33
     6    Number of group sessions for beneficiaries led by volunteers                   8                  76                 68
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                   240              12,442             12,202
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                             3,265                 285              -2,980
  7+8     Total number of beneficiaries educated                                     3,505              12,727               9,222
     9    Estimated number of people reached by media events                       167,000           3,209,414          3,042,414
    10    Estimated number of people reached by community education
          events                                                                     5,005                994               -4,011
    11    Number of complaints received attributable to the project                      3                  0                   -3
    12    Number of complaints referred for follow-up                                    2                  0                   -2
    13    Number of complaints that resulted in some action                              0                  0                    0
    14    Medicare funds recovered attributable to the project                          $0                 $0                   $0
   15A    Medicaid funds recovered attributable to the project                          $0                 $0                   $0
   15B    Savings to beneficiaries attributable to the project                          $0               $808                $808
   15C    Other savings attributable to the project                                     $0                 $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0               $808                $808
14 + 15   Total savings attributable to the project                                     $0               $808                $808




                                                                                                                                     68
 A P P E N D           I X ~ D


 Pennsylvania - Center for Advocacy for the Rights and Interests of the
                                                                                             In operation since: July 1997
                         Elderly, Philadelphia
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  5                   1                 -4
     2    Number of new volunteers trained                                              23                   5                -18
     3    Number of media events conducted                                               6                   8                  2
     4    Number of community education events conducted                                10                  21                 11
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           12                  5                  -7
     6    Number of group sessions for beneficiaries led by volunteers                  78                166                  88
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 2,962              11,876              8,914
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                50                 471                421
  7+8     Total number of beneficiaries educated                                     3,012               3,012                  0
     9    Estimated number of people reached by media events                        10,000           1,106,210          1,096,210
    10    Estimated number of people reached by community education
          events                                                                       409               1,226                817
    11    Number of complaints received attributable to the project                    100                 338                238
    12    Number of complaints referred for follow-up                                    5                   6                  1
    13    Number of complaints that resulted in some action                              1                   3                  2
    14    Medicare funds recovered attributable to the project                        $161                  $0              -$161
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                   $161                  $0              -$161




                                                                                                                                    69
 A P P E N D           I X ~ D


          Puerto Rico - Governor's Office of Elderly Affairs, San Juan                       In operation since: July 1999
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  6                  4                  -2
     2    Number of new volunteers trained                                             117                  6                -111
     3    Number of media events conducted                                               3                491                 488
     4    Number of community education events conducted                                36                 22                 -14
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                            9                   2                 -7
     6    Number of group sessions for beneficiaries led by volunteers                  31                  77                 46
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 4,871               2,172              -2,699
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                               270                 360                  90
  7+8     Total number of beneficiaries educated                                     5,141               2,532              -2,609
     9    Estimated number of people reached by media events                       175,000           1,055,300            880,300
    10    Estimated number of people reached by community education
          events                                                                       219               1,167                948
    11    Number of complaints received attributable to the project                     28                  35                  7
    12    Number of complaints referred for follow-up                                   21                  27                  6
    13    Number of complaints that resulted in some action                              1                   3                  2
    14    Medicare funds recovered attributable to the project                         $55              $1,139             $1,084
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                    $55              $1,139             $1,084




                                                                                                                                     70
 A P P E N D           I X ~ D

                   Rhode Island – Aging 2000, Inc., Providence                                  In operation since: July 1997
                                                                                                                    Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  1                      0                  -1
     2    Number of new volunteers trained                                               5                      0                  -5
     3    Number of media events conducted                                           3,071                  1,281              -1,790
     4    Number of community education events conducted                                13                      7                  -6
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                               0                   0                  0
     6    Number of group sessions for beneficiaries led by volunteers                      7                  27                 20
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                   181                   405                 224
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                 0                     0                   0
  7+8     Total number of beneficiaries educated                                       181                   405                 224
     9    Estimated number of people reached by media events                     6,000,000              6,300,000            300,000
    10    Estimated number of people reached by community education
          events                                                                    50,000                 15,000            -35,000
    11    Number of complaints received attributable to the project                      4                      7                  3
    12    Number of complaints referred for follow-up                                    3                      5                  2
    13    Number of complaints that resulted in some action                              0                      0                  0
    14    Medicare funds recovered attributable to the project                          $0                     $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                     $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                     $0                 $0
   15C    Other savings attributable to the project                                     $0                     $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                     $0                 $0
14 + 15   Total savings attributable to the project                                     $0                     $0                 $0




                                                                                                                                        71
 A P P E N D           I X ~ D


 South Carolina - Department of Health and Human Services, Columbia                          In operation since: July 2000
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  0                   4                  4
     2    Number of new volunteers trained                                               0                  15                 15
     3    Number of media events conducted                                               4                   2                 -2
     4    Number of community education events conducted                                28                  11                -17
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           10                   0                -10
     6    Number of group sessions for beneficiaries led by volunteers                  11                  94                 83
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 2,391               2,464                 73
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                49                   7                -42
  7+8     Total number of beneficiaries educated                                     2,440               2,471                 31
     9    Estimated number of people reached by media events                         1,620              51,091             49,471
    10    Estimated number of people reached by community education
          events                                                                       435               3,950              3,515
    11    Number of complaints received attributable to the project                      8                   1                 -7
    12    Number of complaints referred for follow-up                                    2                   1                 -1
    13    Number of complaints that resulted in some action                              0                   1                  1
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                    72
 A P P E N D           I X ~ D


    South Dakota - East River Legal Services Corporation, Sioux Falls                           In operation since: July 2000
                                                                                                                       Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                     1                   0                    -1
     2    Number of new volunteers trained                                                  3                   0                    -3
     3    Number of media events conducted                                                  0                  13                    13
     4    Number of community education events conducted                                    2                  63                    61
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                               2                      5                  3
     6    Number of group sessions for beneficiaries led by volunteers                      8                      6                 -2
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                   333                   320                    -13
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                               199                   162                    -37
  7+8     Total number of beneficiaries educated                                       532                   482                    -50
     9    Estimated number of people reached by media events                                0               1,151                 1,151
    10    Estimated number of people reached by community education
          events                                                                       650                  1,859                 1,209
    11    Number of complaints received attributable to the project                      3                      0                    -3
    12    Number of complaints referred for follow-up                                    0                      0                     0
    13    Number of complaints that resulted in some action                              3                      0                    -3
    14    Medicare funds recovered attributable to the project                          $0                     $0                    $0
   15A    Medicaid funds recovered attributable to the project                          $0                     $0                    $0
   15B    Savings to beneficiaries attributable to the project                          $0                     $0                    $0
   15C    Other savings attributable to the project                                     $0                     $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                     $0                    $0
14 + 15   Total savings attributable to the project                                     $0                     $0                    $0




                                                                                                                                          73
 A P P E N D           I X ~ D



 Tennessee - Upper Cumberland Development District/AAA, Cookeville                           In operation since: July 2001
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  4                  3                  -1
     2    Number of new volunteers trained                                              39                 55                  16
     3    Number of media events conducted                                              43                 49                   6
     4    Number of community education events conducted                                52                107                  55
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           18                 55                  37
     6    Number of group sessions for beneficiaries led by volunteers                 140                120                 -20
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 7,075               7,585                510
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                90                 169                 79
  7+8     Total number of beneficiaries educated                                     7,165               7,754                589
     9    Estimated number of people reached by media events                       357,540           3,640,893          3,283,353
    10    Estimated number of people reached by community education
          events                                                                     8,659              17,644              8,985
    11    Number of complaints received attributable to the project                     22                  32                 10
    12    Number of complaints referred for follow-up                                    4                  24                 20
    13    Number of complaints that resulted in some action                              8                   7                 -1
    14    Medicare funds recovered attributable to the project                          $0               $114               $114
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                      $1,969                  $0            -$1,969
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings               $1,969                 $0             -$1,969
14 + 15   Total savings attributable to the project                                 $1,969               $114             -$1,855




                                                                                                                                    74
 A P P E N D           I X ~ D


     Texas - Better Business Bureau Education Foundation, Houston                            In operation since: July 2002
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  3                   0                 -3
     2    Number of new volunteers trained                                              80                   0                -80
     3    Number of media events conducted                                               4                   3                 -1
     4    Number of community education events conducted                                29                  64                 35
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           78                   0                -78
     6    Number of group sessions for beneficiaries led by volunteers                  39                  17                -22
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 1,083                721                -362
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                15                 28                  13
  7+8     Total number of beneficiaries educated                                     1,098                749                -349
     9    Estimated number of people reached by media events                       107,000            200,000              93,000
    10    Estimated number of people reached by community education
          events                                                                       568              2,885               2,317
    11    Number of complaints received attributable to the project                     14                 35                  21
    12    Number of complaints referred for follow-up                                    0                 28                  28
    13    Number of complaints that resulted in some action                              7                 13                   6
    14    Medicare funds recovered attributable to the project                     $64,978            $18,926            -$46,052
   15A    Medicaid funds recovered attributable to the project                          $0                 $0                  $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                 $0                  $0
14 + 15   Total savings attributable to the project                                $64,978            $18,926            -$46,052




                                                                                                                                    75
 A P P E N D           I X ~ D



     Texas - The National Hispanic Council on Aging, Corpus Christi                          In operation since: July 1999
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  2                  42                 40
     2    Number of new volunteers trained                                              12                  53                 41
     3    Number of media events conducted                                               8                  14                  6
     4    Number of community education events conducted                                10                  78                 68
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                            0                  17                 17
     6    Number of group sessions for beneficiaries led by volunteers                  34                  40                  6
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 1,218               1,670                452
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                43                 364                321
  7+8     Total number of beneficiaries educated                                     1,261               2,034                773
     9    Estimated number of people reached by media events                       320,000            653,000             333,000
    10    Estimated number of people reached by community education
          events                                                                   210,000               2,745           -207,255
    11    Number of complaints received attributable to the project                     56                  86                 30
    12    Number of complaints referred for follow-up                                   15                  26                 11
    13    Number of complaints that resulted in some action                              0                  34                 34
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                    76
 A P P E N D           I X ~ D


                    Utah - Utah Legal Services, Salt Lake City                               In operation since: July 1999
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                 18                  6                 -12
     2    Number of new volunteers trained                                              51                288                 237
     3    Number of media events conducted                                               1                  2                   1
     4    Number of community education events conducted                                27                 37                  10
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                           31                345                 314
     6    Number of group sessions for beneficiaries led by volunteers                  23                 26                   3
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                   689               1,015                326
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                               166                 455                289
  7+8     Total number of beneficiaries educated                                       855               1,470                615
     9    Estimated number of people reached by media events                           100                300                 200
    10    Estimated number of people reached by community education
          events                                                                     7,080               1,496              -5,584
    11    Number of complaints received attributable to the project                     35                  40                   5
    12    Number of complaints referred for follow-up                                   10                  16                   6
    13    Number of complaints that resulted in some action                             10                   4                  -6
    14    Medicare funds recovered attributable to the project                          $0                  $0                  $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                  $0
   15B    Savings to beneficiaries attributable to the project                          $0              $1,151             $1,151
   15C    Other savings attributable to the project                                     $0              $1,395             $1,395
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0              $2,546             $2,546
14 + 15   Total savings attributable to the project                                     $0              $2,546             $2,546




                                                                                                                                     77
 A P P E N D           I X ~ D

             Vermont - Community of Vermont Elders, Montpelier                                  In operation since: July 2003
                                                                                                                       Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                     0                   2                     2
     2    Number of new volunteers trained                                                  0                   5                     5
     3    Number of media events conducted                                                  0                   4                     4
     4    Number of community education events conducted                                    0                  28                    28
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                               0                      0                  0
     6    Number of group sessions for beneficiaries led by volunteers                      0                      0                  0
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                        0                      0                  0
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                    0                      0                  0
  7+8     Total number of beneficiaries educated                                            0                      0                  0
     9    Estimated number of people reached by media events                                0            193,000                193,000
    10    Estimated number of people reached by community education
          events                                                                         0                   415                    415
    11    Number of complaints received attributable to the project                      0                     1                      1
    12    Number of complaints referred for follow-up                                    0                     1                      1
    13    Number of complaints that resulted in some action                              0                     1                      1
    14    Medicare funds recovered attributable to the project                          $0                    $0                     $0
   15A    Medicaid funds recovered attributable to the project                          $0                    $0                     $0
   15B    Savings to beneficiaries attributable to the project                          $0                     $0                    $0
   15C    Other savings attributable to the project                                     $0                     $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                     $0                    $0
14 + 15   Total savings attributable to the project                                     $0                     $0                    $0




                                                                                                                                          78
 A P P E N D           I X ~ D

  Virginia - Virginia Association of Area Agencies on Aging, Richmond                        In operation since: July 1999
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  3                  4                   1
     2    Number of new volunteers trained                                              15                 27                  12
     3    Number of media events conducted                                              26                 28                   2
     4    Number of community education events conducted                                64                153                  89
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                            3                   4                  1
     6    Number of group sessions for beneficiaries led by volunteers                  41                  83                 42
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 3,035               3,921                886
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                 0                   0                  0
  7+8     Total number of beneficiaries educated                                     3,035               3,921                886
     9    Estimated number of people reached by media events                     1,819,000           1,274,413           -544,587
    10    Estimated number of people reached by community education
          events                                                                    22,402              38,862             16,460
    11    Number of complaints received attributable to the project                     30                  26                 -4
    12    Number of complaints referred for follow-up                                   11                  22                 11
    13    Number of complaints that resulted in some action                              0                   0                  0
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                    79
 A P P E N D           I X ~ D

          Washington - Office of the Insurance Counselor, Olympia                            In operation since: July 1999
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                173                162                 -11
     2    Number of new volunteers trained                                             329                268                 -61
     3    Number of media events conducted                                             137                124                 -13
     4    Number of community education events conducted                                62                 45                 -17
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                          329                268                 -61
     6    Number of group sessions for beneficiaries led by volunteers                 101                289                 188
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 4,321              12,000              7,679
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                            22,169              29,636              7,467
  7+8     Total number of beneficiaries educated                                    26,490              41,636             15,146
     9    Estimated number of people reached by media events                     4,880,153           5,488,404            608,251
    10    Estimated number of people reached by community education
          events                                                                    12,639              13,415                776
    11    Number of complaints received attributable to the project                     12                   5                 -7
    12    Number of complaints referred for follow-up                                    3                   3                  0
    13    Number of complaints that resulted in some action                              3                   0                 -3
    14    Medicare funds recovered attributable to the project                          $0                  $0                 $0
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                 $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                  $0                 $0
14 + 15   Total savings attributable to the project                                     $0                  $0                 $0




                                                                                                                                    80
 A P P E N D           I X ~ D


                  West Virginia - AARP Foundation, Charleston                                   In operation since: July 2003
                                                                                                                       Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                     0                   1                     1
     2    Number of new volunteers trained                                                  0                  25                    25
     3    Number of media events conducted                                                  0                   8                     8
     4    Number of community education events conducted                                    0                   8                     8
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                               0                      0                  0
     6    Number of group sessions for beneficiaries led by volunteers                      0                      0                  0
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                        0                      0                  0
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                    0                      0                  0
  7+8     Total number of beneficiaries educated                                            0                      0                  0
     9    Estimated number of people reached by media events                                0           1,317,579             1,317,579
    10    Estimated number of people reached by community education
          events                                                                         0                  3,360                 3,360
    11    Number of complaints received attributable to the project                      0                      0                     0
    12    Number of complaints referred for follow-up                                    0                      0                     0
    13    Number of complaints that resulted in some action                              0                      0                     0
    14    Medicare funds recovered attributable to the project                          $0                     $0                    $0
   15A    Medicaid funds recovered attributable to the project                          $0                     $0                    $0
   15B    Savings to beneficiaries attributable to the project                          $0                     $0                    $0
   15C    Other savings attributable to the project                                     $0                     $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                     $0                    $0
14 + 15   Total savings attributable to the project                                     $0                     $0                    $0




                                                                                                                                          81
 A P P E N D           I X ~ D


          Wisconsin - Coalition of Wisconsin Aging Groups, Madison                           In operation since: July 1997
                                                                                                                 Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03     Jan. – June ‘04        Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  4                   8                  4
     2    Number of new volunteers trained                                              15                  89                 74
     3    Number of media events conducted                                              15               1,160              1,145
     4    Number of community education events conducted                                32                  10                -22
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                            4                   4                  4
     6    Number of group sessions for beneficiaries led by volunteers                  41                  77                 77
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                 6,379               3,946              3,946
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                69                  13                 13
  7+8     Total number of beneficiaries educated                                     6,448               3,959              3,959
     9    Estimated number of people reached by media events                        33,370           6,028,020          5,994,650
    10    Estimated number of people reached by community education
          events                                                                     4,764               1,125              -3,639
    11    Number of complaints received attributable to the project                     27                  30                   3
    12    Number of complaints referred for follow-up                                    9                  11                   2
    13    Number of complaints that resulted in some action                              2                   4                   2
    14    Medicare funds recovered attributable to the project                         $20                 $39                 $19
   15A    Medicaid funds recovered attributable to the project                          $0                  $0                  $0
   15B    Savings to beneficiaries attributable to the project                          $0                  $0                 $0
   15C    Other savings attributable to the project                                     $0                  $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                 $0                  $0
14 + 15   Total savings attributable to the project                                    $20                $39                 $19




                                                                                                                                     82
 A P P E N D           I X ~ D


      Wisconsin - Great Lakes Inter-Tribal Council, Lac du Flambeau                             In operation since: July 2003
                                                                                                                       Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  0                      1                     1
     2    Number of new volunteers trained                                               0                      6                     6
     3    Number of media events conducted                                               0                      3                     3
     4    Number of community education events conducted                                11                     22                    11
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                               0                      0                  0
     6    Number of group sessions for beneficiaries led by volunteers                      0                      0                  0
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                        0                      0                  0
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                                    0                      0                  0
  7+8     Total number of beneficiaries educated                                            0                      0                  0
     9    Estimated number of people reached by media events                                0                519                    519
    10    Estimated number of people reached by community education
          events                                                                       281                   585                    304
    11    Number of complaints received attributable to the project                      5                     0                     -5
    12    Number of complaints referred for follow-up                                    0                     0                      0
    13    Number of complaints that resulted in some action                              0                     0                      0
    14    Medicare funds recovered attributable to the project                           0                    $0                     $0
   15A    Medicaid funds recovered attributable to the project                           0                    $0                     $0
   15B    Savings to beneficiaries attributable to the project                              0                  $0                    $0
   15C    Other savings attributable to the project                                         0                  $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                     $0                    $0
14 + 15   Total savings attributable to the project                                     $0                     $0                    $0




                                                                                                                                          83
 A P P E N D           I X ~ D


              Wyoming - Wyoming Division on Aging, Cheyenne                                     In operation since: July 2000
                                                                                                                       Change in Last 6
                       PERFORMANCE MEASURES                               July – Dec. ‘03        Jan. – June ‘04           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers                  1                      1                      0
     2    Number of new volunteers trained                                               4                     11                      7
     3    Number of media events conducted                                               5                      4                     -1
     4    Number of community education events conducted                                11                     16                      5
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                               1                      5                  5
     6    Number of group sessions for beneficiaries led by volunteers                      3                      8                  8
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                    20                   176                    176
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                               618                    842                   842
  7+8     Total number of beneficiaries educated                                       638                  1,018                 1,018
     9    Estimated number of people reached by media events                       110,000               105,015                  -4,985
    10    Estimated number of people reached by community education
          events                                                                     1,221                   511                   -710
    11    Number of complaints received attributable to the project                     20                    15                     -5
    12    Number of complaints referred for follow-up                                    0                     1                      1
    13    Number of complaints that resulted in some action                              0                     1                      1
    14    Medicare funds recovered attributable to the project                          $0                    $0                     $0
   15A    Medicaid funds recovered attributable to the project                          $0                    $0                     $0
   15B    Savings to beneficiaries attributable to the project                          $0                     $0                    $0
   15C    Other savings attributable to the project                                     $0                     $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings and other savings                   $0                     $0                    $0
14 + 15   Total savings attributable to the project                                     $0                     $0                    $0




                                                                                                                                           84
